<html>
<title> - REVIEW OF THE USE OF COMMITTEE FUNDS IN THE FIRST SESSION OF THE 111TH CONGRESS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
REVIEW OF THE USE OF COMMITTEE FUNDS IN THE FIRST SESSION OF THE 111TH 
                                CONGRESS

=======================================================================

                                HEARING

                               before the

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                HELD IN WASHINGTON, DC, JANUARY 27, 2010

                               __________

      Printed for the use of the Committee on House Administration


                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html



                  U.S. GOVERNMENT PRINTING OFFICE
55-482                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                   COMMITTEE ON HOUSE ADMINISTRATION

                ROBERT A. BRADY, Pennsylvania, Chairman
ZOE LOFGREN, California              DANIEL E. LUNGREN, California
  Vice-Chairwoman                      Ranking Minority Member
MICHAEL E. CAPUANO, Massachusetts    KEVIN McCARTHY, California
CHARLES A. GONZALEZ, Texas           GREGG HARPER, Mississippi
SUSAN A. DAVIS, California
ARTUR DAVIS, Alabama

                      Jamie Fleet, Staff Director
               Victor Arnold-Bik, Minority Staff Director


REVIEW OF THE USE OF COMMITTEE FUNDS IN THE FIRST SESSION OF THE 111TH 
                                CONGRESS

                              ----------                              


                      WEDNESDAY, JANUARY 27, 2010

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:05 a.m., in room 
1310, Longworth House Office Building, Hon. Robert A. Brady 
[chairman of the committee] presiding.
    Present: Representatives Brady, Lofgren, Gonzalez, Davis of 
California, Lungren, and Harper.
    Staff Present: Jamie Fleet, Staff Director; Matt Pinkus, 
Professional Staff/Parliamentarian; Kyle Anderson, Press 
Director; Joe Wallace, Legislative Clerk; Greg Abbott, 
Professional Staff; Darrell O'Connor, Professional Staff; 
Shervan Sebastian, Staff Assistant; Victor Arnold-Bik, Minority 
Staff Director; Katie Ryan, Minority Professional Staff; Mary 
Sue Englund, Minority Professional Staff; and George Hadijski, 
Minority Professional Staff.
    The Chairman. The hearing of the House Administration 
Committee will come to order. I thank everybody for being here.
    As you all know, we had our hearings in the beginning of 
the year for our committee funding. For the sake of brevity, I 
am not going to read my opening statement. That doesn't mean my 
Ranking Member can't. But we have asked our committees to come 
back and give us sort of a mid-term report on how they are 
making out, because we know we cut a lot of you and we know you 
are doing an excellent job with the limited amount of money 
that you received. We think you are doing an excellent job, and 
we would like to get a report back on how you are doing, and 
also if and when and how we may have a chance to be helpful. If 
there is some critical need you may have, we are ready to try 
to see how we can possibly assist you.
    I know there has been some--I don't know exactly how many, 
I think I do, but I don't have it right in front of me--there 
are some committees that were able to be creative with some of 
your staff members that weren't being paid by you to maybe be 
moved over to some other agencies and we have been able to do 
that and been able to save some money for you.
    With that, I would just like to thank you again for being 
here and recognize the Ranking Member, Mr. Lungren, for any 
comments he would like to make.
    Mr. Lungren. Thank you very much, Mr. Chairman, and thank 
you for the bipartisan manner in which you have approached 
these hearings. Last year when we made the suggestion that we 
have a mid-session or mid-Congress report, you were positively 
disposed to do that. I think it is in our mutual interest to 
ensure not only the prudent use of taxpayer funds but also to 
ensure that what we have believed to be the case--that is, that 
there is an appropriate expenditure of funds between the two 
parties, that we have the two-thirds/one-third--that both sides 
are satisfied that the level of cooperation is where it ought 
to be.
    Also last year, we both pledged to pursue a Policy of 
posting all committee monthly reports on line so they could be 
accessible to the public under the rubric of transparency. 
Today those reports, which document all the committees' 
expenditures and activities are available at our House 
Administration Web site.
    We have even tougher budgetary problems today than we did 
when we were meeting with these committee representatives a 
year ago, but I am interested in finding out how they are 
proceeding with the budgets that they have. And as the 
President has signaled in his proposal to freeze Federal 
spending, we at least ought to take a look at where we are in 
terms of spending here in the House.
    I am not one that believes that we ought to strip members 
or their staffs or the committees of the funds needed to do the 
job, because if we are going to do oversight on the executive 
branch as they look at spending priorities, we need to be able 
to have the staff to do that. And we do have some committees 
that have assumed additional responsibilities, and I think it 
would be interesting for us to find out how those additional 
responsibilities compare with the budgets that they have.
    With that, I thank you, Mr. Chairman.
    The Chairman. I thank the Ranking Member.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T5482A.001
    
    [GRAPHIC] [TIFF OMITTED] T5482A.002
    
    [GRAPHIC] [TIFF OMITTED] T5482A.003
    
    The Chairman. I am pleased to see the Honorable Zoe Lofgren 
doing double duty here, sitting on a panel with us, sitting on 
our committee here, and now also as the chairperson of the 
Ethics Committee, and also the Ranking Member, Mr. Bonner. 
Thank you for being here.
    We will start off with you, Ms. Lofgren.

  STATEMENT OF THE HON. ZOE LOFGREN, CHAIRWOMAN, COMMITTEE ON 
                 STANDARDS OF OFFICIAL CONDUCT

    Ms. Lofgren. Thanks to you, Mr. Chairman, and thanks to the 
committee and Mr. Harper in particular, who is also a member of 
the Ethics Committee and will know the truth of what we say 
personally.
    I am going to try and set a standard for the rest of the 
day by asking unanimous consent that my written remarks be made 
part of the record.
    The Chairman. Without objection, so ordered.
    Ms. Lofgren. I will hit a couple of the high points in 
terms of expediency and time.
    We don't have a two-thirds/one-third rule on the Ethics 
Committee. We are completely bipartisan. It is the only 
committee of the House that is equally split, five Democrats, 
five Republicans. And we approach our obligation seriously, but 
without a hint of partisanship. And I can say, without dealing 
with any of the issues that are before us that need to be 
confidential, we have yet to have a vote that is less than 
unanimous in the Ethics Committee. And I am so pleased that Mr. 
Bonner, the Republican Ranking Member, is here to issue his 
statement.
    But we have transformed the Standards Committee this year 
when, you will recall, we had a budget of $2.7 million. We will 
return $.3 million of those funds, we did last year, because of 
vacancies. However, when we began our task, Mr. Bonner and I 
had--we had 15 staff but we had nine vacancies. We have now 
hired 11 new staff, including a permanent staff director, a 
chief counsel, a deputy chief counsel, seven investigative 
attorneys and, as a result, the committee is staffed for the 
first time.
    The staff is working very hard. If you go over there at 
midnight you will find them working, because we have had an 
incredible workload. We have issued more than 475 formal 
advisory opinions. We have fielded 9,700 telephone calls for 
advice, with 3,900 
e-mails. We have provided training to 10,500 House Members and 
staff, and we have reviewed 2,700 financial disclosures.
    We have commenced or continued our investigative fact-
finding regarding the conduct of 36 House Members, 7 House 
employees, and one general matter. The committee has issued 17 
subpoenas from the full committee and resolved 25 investigative 
matters without impaneling an investigative subcommittee. And 
we have impaneled three investigative subcommittees while 
continuing another.
    I would note this is a record for the committee as far as 
we can tell. There have never been as many investigations going 
on as there have been today. I should note that that doesn't 
mean that there is more wrongdoing. It means that the committee 
has been very active, and even a hint that comes to us, we make 
sure that we can assure the public and our body that things are 
going well, that we take all of these things seriously.
    The four active investigative subcommittees have authorized 
the issuance of 199 subpoenas, interviewed 91 witnesses, 
reviewed nearly 40,000 pages of documents, and held 
approximately 80 investigative subcommittee meetings. Every one 
of those actions requires substantial staff effort.
    Just recently we have received in excess of 200,000 pages 
of documents relating to a matter that we are looking into, 
and, of course, the staff needs to read and review every page 
of the 200,000 documents that we have received.
    As we noted when we were here at the beginning, we might 
need to come back for some additional assistance. The committee 
was very welcoming for that concept. We knew that we were 
starting from a low spot, and I think that the committee and 
the Congress will be pleased by the hard work that we have put 
in.
    I don't want to toot our own horn, but really this is the 
most collaborative, bipartisan relationship I think you will 
find in the Congress. I just can't say enough good about Mr. 
Bonner, who has been a tremendous part of the renewal of this 
committee.
    I would turn now to Jo for his statement. Jo.
    [The statement of Ms. Lofgren follows:]

    [GRAPHIC] [TIFF OMITTED] T5482A.004
    
    [GRAPHIC] [TIFF OMITTED] T5482A.005
    
    [GRAPHIC] [TIFF OMITTED] T5482A.006
    
    [GRAPHIC] [TIFF OMITTED] T5482A.007
    
    [GRAPHIC] [TIFF OMITTED] T5482A.008
    
    [GRAPHIC] [TIFF OMITTED] T5482A.009
    
 STATEMENT OF THE HON. JO BONNER, RANKING MEMBER, COMMITTEE ON 
                 STANDARDS OF OFFICIAL CONDUCT

    Mr. Bonner. Mr. Chairman, Ranking Member Lungren, and other 
members of the committee, thank you very much for allowing me 
to be before you today. I too would ask that my written 
statement, without objection, be entered into the record.
    The Chairman. Without objection, so ordered.
    Mr. Bonner. Mr. Chairman, when Chairwoman Lofgren and I 
appeared before your committee last year, the fact is that 
neither she nor I had a long history of working together. We 
had never served on a committee together. In fact, we met for 
the first time as we were going out on that very cold January 
day for the inauguration of President Obama. Yet we both had 
been assigned by our leadership, Speaker Pelosi and Leader 
Boehner, to take over a committee that, unfortunately, did not 
always have a reputation for working together, even though as 
the chairwoman noted we are the only committee that is divided 
equally between five Democrats and five Republicans. There had 
been a lot of strife, needless to say, over the years. That is 
not saying anything about any previous chair or ranking 
members, it is just a fact that we inherited.
    The Chair also mentioned, and it is true, that we came in 
where the staff itself was understaffed. There were several 
vacancies. And yet the work of the committee continued to 
mount, and backlogs were becoming more and more noticeable and 
more and more unacceptable.
    So I welcome this opportunity as a mid-Congress review to 
not only tell you, as the Chairwoman has with the statistical 
numbers, but I think the institution can be pleased with the 
progress we have made and, more importantly, I hope at the end 
of the day, the American people can have a renewed sense of 
confidence that the committee that is charged with the 
responsibility of education and advice, as well as looking into 
serious allegations of wrongdoing and misconduct, is taking our 
job seriously.
    Really, it is with that thought, Mr. Chairman, that we come 
before you today to thank you for the support that you have 
given us previously and to let you know that we have not taken 
that support and that endorsement of our work lightly.
    Certainly the collaboration and the bipartisanship that the 
Chairwoman and I have tried to build upon has been added to by 
the talents of four other colleagues on the Democratic side and 
four other colleagues on the Republican side who have worked in 
good faith every time we have asked them to take on additional 
responsibilities. So that, at the end of the day, we can 
hopefully give the American people more confidence that we do 
take ethics seriously and it is one of our highest priorities.
    So, really, Mr. Chairman, the chairwoman has already 
alluded to the fact that we have filled a lot of vacancies that 
we inherited when we came into our respective jobs. We have 
worked to try to cut back on some of the long delays of 
responding to Members and responding to staff.
    People sometimes forget that this is a small community of 
some 10,000-plus people who work on Capitol Hill. And each one 
of them should have the opportunity, whether it is a new 
staffer that is just joining for the first time or a senior 
member who has been here for 40 years, should have confidence 
that when they come to us with a question, with a matter that 
needs our review and perhaps our advice, that they can get an 
answer in a reasonable amount of time and one that they can go 
to the bank on.
    With that, Mr. Chairman, I yield for any questions that you 
or the other members might have.
    The Chairman. I thank the gentleman.
    [The statement of Mr. Bonner follows:]

    [GRAPHIC] [TIFF OMITTED] T5482A.010
    
    The Chairman. I also would like to add in confidentiality, 
which is most important.
    Now, I do appreciate the fact, and I have heard the 
testimony, that there are a lot of advisory requests that come 
in and you answer them. It is good for everybody to feel how 
you all are working together, and I think it also gives a lot 
of the Members, and I am sure some staff members, mostly 
Members, it gives them a good feeling to know that we can ask a 
question and it will stop there and won't be--we won't hear 
about it again. And in the advisory that you give us--which we 
do need from time to time--that you are more knowledgeable than 
we are in giving us that advisory; hopefully we take it and do 
the right and proper thing.
    So I do appreciate, and it is noted the comaraderie-ship is 
there with the Republicans and Democrats, and it gives a lot of 
confidence to the Members. I thank you, and I ask Mr. Lungren 
if he has any questions.
    Mr. Lungren. I echo the Chairman's comments, in that 
Members rely on an effective and vigorous Ethics Committee to 
be able to respond to the questions in a timely fashion. That 
is why I remember when you came here last year, you talked 
about an increase in your budget, most of which I think we were 
able to approve. Then, looking at the December monthly report, 
it appears--and, again, I am going to say by your report that 
your committee had over a half a million dollar-surplus at the 
end of 2009. But I understand you might be making a request for 
some additional funds for this next year.
    It would be helpful if you could elaborate on the need for 
the increased spending, because otherwise people will say, Wait 
a second, they had a surplus at the end of the year and now 
they want an increase. Do they expect more work as we go into 
an election year, or do you have to build on what you did last 
year? If you could tell us that.
    Ms. Lofgren. Certainly. The $500,000 figure is a little bit 
misleading, because some of it was obligated and not yet 
actually spent. So it is really about $200,000 that went 
unspent because we had vacancies we were trying to fill. But 
there were vacancies throughout the year.
    I will just mention that in some cases the request for 
advice when we arrived, there was a 2-year delay in some cases 
from Members getting advice from the committee. As the Chair 
has mentioned, and the Ranking Member, that is a very important 
function of the committee, because Members don't want to 
violate the rules. A few outliers maybe, but everybody wants to 
follow the rules. But they can be complicated. So people call 
in because they want advice. They don't want to misstep. If it 
is a 2-year delay on getting the answer, obviously that is 
unacceptable.
    Mr. Lungren. You might be retired by then, sometimes 
involuntarily.
    The Chairman. Sometimes because of a lack of an answer.
    Ms. Lofgren. That could also be, Mr. Chairman. So we have 
staffed up. I will tell you, the investigative load is very 
substantial. As I mentioned, we have never had four 
investigative subcommittees at any one time. Under rule 18(a), 
the Chair and Ranking Member are authorized to have 
investigations preliminary to any official investigative 
subcommittee action. And Mr. Bonner and I meet frequently. I 
think we talk almost every day on the matters that are 
necessary to review. In fact, a number of subpoenas were issued 
pursuant to 18(a) authority. There is substantial staff time. 
So we need additional investigative attorneys.
    Do we have the actual staffing plan that we have submitted?
    Mr. Lungren. While you have that intermission, also last 
year you talked about the need to upgrade the technology base 
in the committee. Has that been done or is that ongoing, and 
would we expect additional expenditures in that regard?
    Ms. Lofgren. We have made some progress, although we want 
to make more. Over the last year, the committee has made the 
ethics process more accessible and convenient and user 
friendly, using technology to allow, for example, financial 
disclosures to be made not just here in the Capitol but 
available outside the House network. We have worked to improve 
the registration and delivery of online training. I think many 
members of your staff probably have participated in the online 
training, and we are going to have new content available, too.
    We are hoping to incorporate better technology in the 
advisory opinion and travel processes. And I think today we are 
going to make an official announcement on a travel working 
group that Jo and I have appointed, because the travel 
regulations, they are important, but they are convoluted and 
they are opaque, and they are so time-consuming.
    For example, whole trees are falling before these 
processes. I mean, each person who goes on a trip, even if it 
is the exact same trip, the exact same sponsor, you have 
separate in-paper processes. It is an absurd way to do it. It 
does not actually allow for transparency to the public. So we 
are hoping to streamline that, to be able to make that more 
accessible to public view, and also user friendly.
    We have $50,000 allocated for technology, and I think the 
answer to much of our advice work really is to use technology. 
But we are just beginning on what we want to do.
    I have been handed by staff--who we all rely on--if we are 
able to get additional assistance, we have been authorized by 
the leadership to go from 24 to 29 employees, and we would have 
those five additional positions, a new director of advice and 
education, three investigative counsel, and an additional 
counsel for our financial disclosure unit, and those positions 
would take the bulk of these funds.
    Jo, do you have anything to add?
    Mr. Bonner. Mr. Lungren, in response to your question and 
to add to what the chairwoman has said, neither she nor I would 
have preferred to come to the committee asking for an 
additional increase in funding. We know that this is a tight 
time not only for Congress, it is really a tight time for the 
American people. Families and businesses are having to make 
tough decisions, and we have tried with every ounce of 
sincerity to squeeze as much as we could.
    But let me give you an example of where, beyond our 
control, now we have a new outside Committee on Ethics that 
Congress authorized and that is fully established and 
operational. In 2009 the OCE referred 20 matters to the 
committee to take up, 12 of which required further review by 
our committee. So in addition to the work that the Chair and I 
are authorized to commence and that the committee is authorized 
to commence, we now have another group that brings--and, as she 
indicated in her testimony, in one instance they brought over 
200,000 pages of documents that are dealing with the lives and 
reputations of Members of Congress or others who work on the 
Hill. That is a volume that is staggering. Plus, they also 
impose upon us a time deadline that we have to respond to or 
take further action.
    So, in order to be fair to the Members whose names come 
before us, but really more importantly, in order to reassure 
the American people that we are doing everything we can to look 
at any allegation as seriously as possible and conclude with 
it, it is going to require some additional people.
    I will echo what the chairwoman said earlier, though. We 
have spent the better part of the year fully staffing the 
committee. Quite frankly, I think the new talent we have 
brought only has been a tremendous complement to the dedicated 
workforce we already had. One individual in particular who just 
left the committee, creating a vacancy, is now the U.S. 
Attorney in my district in Alabama.
    So the people that have worked with us continue to do great 
things for service of the country. But that said, the need is 
obvious because of the increased workload that we have had.
    Mr. Lungren. Thank you.
    The Chairman. Mr. Harper.
    Mr. Harper. Thank you, Mr. Chairman. I just simply want to 
say how much I appreciate the way that you work together on 
this committee. I would classify it more as nonpartisan than 
even bipartisan. I just want to say thank you.
    Mr. Bonner. Mr. Harper, I want to thank you, as the 
chairwoman did, for your service on the committee. That is one 
that no one volunteers for, but we appreciate the time you 
invest in it as well.
    If I may, Mr. Chairman, I want to echo what Chairwoman 
Lofgren was kind in saying: that she and I have built a strong 
relationship, a strong working relationship. We have really 
built a strong personal friendship. This is something that, as 
I indicated earlier, when she and I first came to these 
responsibilities, we did not have a preexisting friendship or 
relationship of working together.
    I don't know that this means much to the American people, 
and it may not even mean much to the people here who serve on 
this committee, but there has not been one time in the past 
year where Zoe and I have not been in agreement on how we 
should proceed.
    Traditionally, that is not always the case on this 
committee, even though it is nonpartisan. More importantly, 
that speaks also for the relationship that Mr. Harper has with 
Mr. Butterfield and that the other Democrats and Republicans 
have. This is truly a model of the way a committee should work, 
and I am just honored to be part of it.
    Ms. Lofgren. If I could just add, Mr. Bonner is a 
conservative Republican from Alabama. I am not. It has nothing 
to do with the job before us. The job before us, and we all 
feel this way, is to fairly apply the rules and uphold the 
standards for the country. I think every member of that 
committee--no one asked to be on committee, I didn't ask to 
chair, and Jo did not ask to be ranking.
    But we take this very seriously. It is not to serve 
members, it is to serve the country, so that the country can 
have confidence that the standards are being upheld. Every 
member who serves, I am just grateful to them.
    The Chairman. I thank both of you, and also thank you for 
instilling the confidence in a lot of the Members that we can 
come to you for a confidential report and a confidential 
advisory. We do appreciate that. That does ripple through all 
the Congress. So we thank you. I certainly hope my name never 
comes across either of your desks.
    Thank you.
    Mr. Lungren. I hope so, too.
    The Chairman. Good morning.
    Mr. Reyes. Good morning, Mr. Chairman. It is my 
understanding Mr. Hoekstra has been detained and may not be 
able to make it. I am at your disposal.
    The Chairman. You will have to pick up both ends of it.
    Thank you for coming in. As you know, when we first met 
last year, you came to us for your funding, we also asked that 
you come back a year later and let us know how you are doing, 
how you are making out. We appreciate your being here today.
    Mr. Lungren.
    Mr. Lungren. I just am happy to see Mr. Reyes here. I am 
sorry Mr. Hoekstra is not here. I am sure we will hear from you 
as to the committee's position on budget and how things are 
going in terms of the working relationship, and if there is 
anything we need to take a look at.
    Thank you.
    The Chairman. Mr. Reyes, the floor is yours.
    Mr. Reyes. Thank you. I don't know who was sitting here 
before, but the seat is nice and hot.
    The Chairman. We have automatic heaters for certain people 
that we can turn it up or turn it down, just like your 
committee, sir.
    Mr. Reyes. Very good.

  STATEMENT OF THE HON. SILVESTRE REYES, CHAIRMAN, PERMANENT 
                SELECT COMMITTEE ON INTELLIGENCE

    Mr. Reyes. Mr. Chairman and Ranking Member, I thank you for 
providing me with an opportunity to update you on the use of 
the committee's budget and our authority in the first session 
of the 111th Congress. I want to thank both of you for your 
efforts towards greater accountability and transparency where 
committee funding is concerned.
    I believe these interim reports are an important step in 
shedding light on the committee's financial decisions. These 
reports are also an excellent opportunity for a chairman to 
evaluate the allocation of committee resources and ask 
important questions about its operating expenses and the 
priorities of the committee.
    Before I begin my statement, Mr. Chairman, I would ask that 
my complete statement be entered into the record.
    The Chairman. Without objection.
    Mr. Reyes. Thank you. As I noted in my February 2009 
testimony before this committee, I exercised great fiscal 
restraint in my budget request for the committee's operation in 
the 111th Congress. Today, I stand by that request, and I 
continue to make a concerted effort to fulfill the committee's 
obligations to conduct appropriate oversight over the 
Intelligence Community in a fiscally responsible manner.
    I have reviewed the committee's expenditures for 
legislative year 2009, along with the estimated outlays for 
legislative year 2010, and I am confident that no increase in 
budget authority will be necessary for HPSCI to complete its 
oversight mission and to provide the Intelligence Community 
with the resources and capabilities it needs to carry out its 
critical mission.
    Mr. Chairman, the committee was authorized $5,387,500 for 
the first session of the 111th Congress. These funds enabled 
the committee to hold 99 briefings and hearings at the full 
committee and subcommittee levels, as well as two full 
committee markups. In 2009 the committee also conducted 76 
foreign and domestic oversight trips.
    According to the figures provided by the House Finance 
Office, I estimate the committee will return approximately 
$900,000 of its authorized budget to U.S. taxpayers. The unused 
funds for 2009 can be attributed to a number of factors: first, 
numerous equipment upgrades and purchases that came in under 
vendor estimates or were found to be unnecessary by the 
committee's security and IT staff; second, a modification in 
committee travel reimbursement policy from actual expenses to 
actual expenses within government per diem guidelines; third, 
an increase in foreign oversight travel under the financial 
auspices of the State Department and the military; and, 
finally, the loss of several of our most highly compensated 
staff members to the new administration.
    In fact, the lion's share of unused funds fall within the 
budget category for personnel compensation funds. As you know, 
committee rules require all committee staff, from the staff 
director to staff assistant, to have a security clearance. The 
process of conducting the necessary clearance investigation for 
us is often a lengthy one. As a result, turnover in the 
committee can result in long vacancies during which personnel 
compensation funds are simply not spent. The committee also 
suffered from the temporary loss of one employee to a military 
deployment.
    I would also add that when I appeared before this committee 
last year, the Intelligence Committee had yet to meet and 
approve the oversight plan for the 111th Congress. Since then, 
the committee adopted and has adhered to the legislative and 
oversight activities as they were laid out in the draft plan, 
with the notable addition of an expansion of lines of inquiry 
on the committee by Oversight and Investigations.
    To that end, recent world events, like the shooting at Fort 
Hood and the attempted attack on Northwest Flight 254 and the 
December 30th attack in Khost, Afghanistan, continue to 
illustrate the challenges facing the Nation and the 
Intelligence Community.
    These challenges require rigorous and vigilant oversight on 
the part of our committee. The committee views the 
responsibility to conduct oversight not only in terms of the 
threats posed to our Nation, but also in terms of our Nation's 
ability to disrupt these activities and to be able to respond 
to those threats.
    The funds requested are the funds required for the 
committee to conduct our oversight properly and, we feel, 
responsibly. As the primary overseer of the Intelligence 
Community for the U.S. House of Representatives, today I give 
my commitment that the committee will continue to act as 
guardian of the taxpayer moneys that are used to finance our 
intelligence programs and to account for the programs that are 
intended to safeguard the Nation's security and protect 
individual freedoms.
    With that, Mr. Chairman and Ranking Member, I thank you for 
the chance to update the committee on the fiscal health of 
HPSCI, and I welcome any questions that you might have.
    [The statement of Mr. Reyes follows:]

    [GRAPHIC] [TIFF OMITTED] T5482A.011
    
    [GRAPHIC] [TIFF OMITTED] T5482A.012
    
    [GRAPHIC] [TIFF OMITTED] T5482A.013
    
    [GRAPHIC] [TIFF OMITTED] T5482A.014
    
    [GRAPHIC] [TIFF OMITTED] T5482A.015
    
    [GRAPHIC] [TIFF OMITTED] T5482A.016
    
    [GRAPHIC] [TIFF OMITTED] T5482A.017
    
    [GRAPHIC] [TIFF OMITTED] T5482A.018
    
    [GRAPHIC] [TIFF OMITTED] T5482A.019
    
    The Chairman. I thank the gentleman. We do understand that 
a lot of your duties are reactionary. Hopefully there will not 
be too many situations that you need to react to. But I thank 
you for the job you and your committee does.
    Mr. Lungren.
    Mr. Lungren. Mr. Chairman, as someone who served on the 
Intelligence Committee a number of years ago, I understand the 
work that you have to do and the need to have exceptionally 
talented and well-versed staff. You are dealing with some of 
the most important parts of our Federal Government and it takes 
some real drilling down to find out what we are talking about 
and what the conclusions and the consequences of different 
programs are. Having said that, I appreciate your assurance 
that you have sufficient staff and sufficient funding to do the 
job that you need to do.
    One area I would ask is about modernizing your information 
technology equipment. When you appeared before us a year ago, 
you talked about the possibility of doing that. You were also 
about ready to utilize your new SCIFs over there at the CVC.
    How well has that worked out and are you engaged in a 
modernization of the technology equipment, particularly given 
the information security needs of your committee?
    Mr. Reyes. Well, I am happy to report that we have, and I 
think everybody understands that when you are talking about 
technology, it is really an ongoing process, as technology 
changes just about every 6 months, but we have greatly enhanced 
our IT capability.
    As you mentioned, we moved into the new offices, the new 
area in the Visitors Center, and like anything else that is 
brand new, we are still working through that. One of the areas 
that we just recently, we hope, completed was the ability to 
have access through a fingerprint pad system. We had some 
issues with that. It was recently completed. It seems to be 
working fine.
    But other than those normal kinds of things that you 
encounter, we have made a good transition to the new area. We 
are very happy with that. We think it greatly enhances not just 
our capabilities for the staff and Members, but it also 
provides us greater flexibility in doing the kinds of things we 
need to do to make sure we carry out our responsibilities.
    Mr. Lungren. Do you have any reason to believe that Mr. 
Hoekstra would have a different position in terms of the 
sufficiency of your funding?
    Mr. Reyes. I don't believe so. We are basically following 
the same pattern that he used when he was chair of the 
committee. So I think in that respect, although we may disagree 
philosophically on some political issues, I think the most 
important thing, and the priority for me as it was for him, is 
to make sure that we do the work that is necessary to keep our 
Nation safe.
    Mr. Lungren. Thank you very much.
    The Chairman. Mr. Harper.
    Mr. Harper. No questions.
    The Chairman. Thank you, Mr. Chairman, for coming in front 
of us, and thank you for the job you do.
    Mr. Reyes. Thank you all again. I appreciate the 
opportunity to come before you.
    The Chairman. Good morning.
    Mr. Rangel. Good morning.
    The Chairman. We take it you two are getting along.
    Mr. Rangel. We want set the impression.
    Mr. Lungren. It looks good so far.
    The Chairman. Thank you again for appearing in front of us 
and coming back. We had a hearing a year ago when we did the 
funding. We asked that you come back and report how you are 
doing financially and with staff. Hopefully we can be helpful, 
or hopefully you are fine.

STATEMENT OF THE HON. CHARLES B. RANGEL, CHAIRMAN, COMMITTEE ON 
                         WAYS AND MEANS

    Mr. Rangel. Thank you for giving us this opportunity, you 
and my friend, the Ranking Member. If we were doing nearly as 
well politically as we are doing administratively, it would be 
a great report.
    But we have worked very closely, our staffs, with the 
Minority. They receive one-third of the allocations that you 
have been able to give to us. We do ask for three additional 
staff members: two for the Majority and one for the Minority. 
We have had a total of 40 hearings and 9 markups. 1,200 bills, 
or 17 percent, of all House bills have been referred to Ways 
and Means. 32 went to the floor, and of that number 15 have 
become law.
    We have taken every opportunity, few as they may be, to 
work in a friendly and bipartisan way, and the committee has 
been good to us and we are pretty proud of our record and 
comity and our ability to work together.
    I am here to answer any questions that you may have.
    [The statement of Mr. Rangel follows:]

    [GRAPHIC] [TIFF OMITTED] T5482A.020
    
    [GRAPHIC] [TIFF OMITTED] T5482A.021
    
    [GRAPHIC] [TIFF OMITTED] T5482A.022
    
    [GRAPHIC] [TIFF OMITTED] T5482A.023
    
    The Chairman. Thank you. Mr. Camp.

 STATEMENT OF THE HON. DAVE CAMP, RANKING MEMBER, COMMITTEE ON 
                         WAYS AND MEANS

    Mr. Camp. Thank you, Mr. Chairman and Ranking Member 
Lungren, and members of committee. Thank you for the 
opportunity to appear here with Chairman Rangel in support of 
our budget allocation for the second session of the 111th 
Congress.
    I do want to say that I agree with Chairman Rangel that 
from an administrative standpoint, there has been no 
partisanship on this committee. The committee has been--he has 
done an excellent job of running the committee from an 
administrative standpoint. We do receive our full one-third 
share, as was the case when we were in the Majority. The 
Minority got a third share and the Majority got a two-thirds 
share. So this is the way the committee has been run for some 
time, and I just want to say that has gone very well.
    We do need the substantial resources that you have 
allocated to us to do our jobs effectively. As the Chairman 
said, we have had many hearings and a number of high-profile 
issues come to our committee, and particularly we anticipate 
that in the year ahead as we look at ways to focus on and 
create jobs.
    I also want to support the Chairman's request for an 
increase in our committee staff allotment. Under the increase 
the Majority would receive two, we would receive one. I will 
say that in terms of this year, from my standpoint, I did not 
realize I was going to be the Ranking Member and get authority 
for that until January. So much of last year we were bringing 
our staff together, putting a team together, and bringing 
people on throughout the year, so we did not have everybody on 
staff and in place in January. But that has been occurring 
through the months of the year.
    Again, I want to support the committee's 2010 allocation, 
and would be prepared to answer any questions.
    [The statement of Mr. Camp follows:]

    [GRAPHIC] [TIFF OMITTED] T5482A.024
    
    [GRAPHIC] [TIFF OMITTED] T5482A.025
    
    [GRAPHIC] [TIFF OMITTED] T5482A.026
    
    The Chairman. I thank the gentleman.
    Mr. Lungren.
    Mr. Lungren. I thank you, and I thank both of you for 
appearing before us. I appreciate the spirit of comity with 
which you have addressed, as you keep saying, administratively 
your responsibilities.
    I think this is important for the public to understand, I 
note that in virtually every case the committees did not spend 
all the money that was authorized and appropriated for them. 
So, actually those moneys have been saved.
    The question does arise--and I know you can answer this, 
but I would just like it for the record--that at the least 
according to the reports we had from the committee, you did not 
spend about $1,463,000 of your budget. I am not going to 
criticize you for that because, again, that shows you didn't 
try to spend everything, as we sometimes find the executive 
branch appears to make sure that they spend every penny.
    But would some of that savings from last year be, as you 
suggested, Mr. Camp, that you were building up your staff, you 
didn't have your total staff the entire time? Would that be 
part of it?
    Mr. Camp. That would be part of it. We obviously tried to 
be very careful, knowing that this is a 2-year plan. But, yes, 
I was really getting the team together for part of last year 
and did not have everybody in place, so that would explain part 
of that. But also we tried to be responsible, particularly in 
the first year of a 2-year session.
    Mr. Lungren. As I understand also, and I believe it is in 
your formal statement, Mr. Chairman, that you did some upgrades 
on equipment. Is that ongoing?
    And, secondly, one of the concerns people have expressed 
has been are we doing a good enough job as a Congress, in our 
offices and committees, in terms of protection of our IT? That 
is, are you getting the support you need from our IT operation 
and our operation that protects against cyberattacks and so 
forth?
    Mr. Rangel. I hope that you can leave the record open so I 
can give a more detailed report, because, quite frankly, I 
haven't received any complaints. But I have to tell you that we 
have been working this staff so hard because of the recent 
political and legislative position we find ourselves in. So we 
don't know exactly what we have to do to keep our staff.
    I might even add that Republicans and Democrats have made 
it a lot easier for the Members by giving us guidance as to 
things that we can do and, just as importantly, things that 
politically we can't even think about.
    So in terms of IT and the other things, I will have to take 
a look. If you will leave the record open, I will get a report 
for you.
    Mr. Lungren. Thank you.
    The Chairman. Without objection, we can leave the record 
open for you to come back with that report.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T5482A.027
    
    The Chairman. Mr. Gonzalez.
    Mr. Gonzalez. No questions.
    The Chairman. Mr. Harper.
    Mr. Harper. Thank you, Mr. Chairman.
    I understand there are three new positions--is that right, 
Mr. Chairman--that are going to be added, or you wish to fill; 
is that correct?
    Mr. Rangel. Yes, we are asking for that.
    Mr. Harper. Is it possible, certainly in light of our 
current economy in this country, is it possible that those 
positions could remain unfilled? What impact would that have on 
the committee if the positions are not filled at this time?
    Mr. Rangel. I can't tell you, and I don't want to find out, 
frankly. Our staff doesn't have enough hours in the day. 
Whether it is weekend or late at night, we do what has to be 
done. They are so very supportive. Because of the complexity of 
some of our work, it is really one of those cases that the 
Members can't get along without them. It is not an 8-hour day. 
Anything we can do to ease the hours they spend away from their 
families, we want to do it. In their opinion, we could use 
three workers. Believe me, we have had a history, as Dave Camp 
has said, in doing the best we can with what we have to work 
with. We would not ask for this unless it was really badly 
needed.
    Mr. Harper. Mr. Camp.
    Mr. Camp. I just want to comment and really second that. We 
do have an experienced staff on both sides with a great deal of 
technical expertise, whether it is trade, tax, or health care, 
and it is very important that we have that continuity because 
these are complex issues.
    I will say that on both sides, Republicans and Democrats, 
they work often until 1 and 2 in the morning, and especially as 
we are preparing for any kind of hearing or legislation.
    So we do need that assistance. There is no new dollar 
request behind those positions. It is within the existing 
budget. So we would like to be able to have some more hands on 
deck, frankly. Thank you.
    Mr. Harper. Thank you, Mr. Camp. No additional questions.
    The Chairman. I thank the gentleman. Ms. Lofgren.
    Ms. Lofgren. I have no questions.
    The Chairman. Thank you. I thank both of you for coming. We 
appreciate your time and your effort with us.
    The Chairman. The Chair would like to make a brief 
announcement while we are waiting for our Energy and Commerce 
members. I will give up the chair to Mr. Gonzalez, who asked to 
chair for that, and ask him if he would stay a little longer if 
necessary, because I have been summoned to the Speaker's 
office, and I am hoping I am summoned to her office and not the 
woodshed. If I come back with a smile, I am in good shape. If 
not, I will come back as quick as I can. Thank you.
    Mr. Barton. Are you ready for us?
    Mr. Gonzalez [presiding]. We are ready for Energy and 
Commerce.
    The committee will next consider the budget request of the 
Committee on Energy and Commerce. Of course, we have the 
Chairman, Mr. Waxman, and the Ranking Member. Each of you will 
be given 5 minutes to make your statements, and then, if we 
have some questions, we will be recognizing members of the 
committee. Welcome, good morning, and my personal apologies for 
not being there at the committee this morning as we take up the 
Burgess resolution.
    Mr. Waxman.

 STATEMENT OF THE HON. HENRY A. WAXMAN, CHAIRMAN, COMMITTEE ON 
                      ENERGY AND COMMERCE

    Mr. Waxman. Thank you very much, Mr. Chairman, members of 
the committee. I want to thank you for this opportunity to 
testify and to report on the Committee on Energy and Commerce's 
111th Congress expenditures. I am pleased to be here with the 
committee's Ranking Member, Joe Barton.
    When I testified before you last February, I described the 
ambitious agenda planned for the Committee on Energy and 
Commerce in the 111th Congress. At this halfway point in the 
Congress, I am proud to report that the committee has already 
accomplished a significant portion of that agenda.
    In the past year, the committee reported comprehensive 
legislation addressing three of the top priorities of the new 
Obama administration and the American public: health care 
reform, climate change legislation, and energy independence. We 
also reported food safety reform, tobacco legislation, chemical 
and drinking water security legislation, and consumer financial 
protection legislation.
    At the same time, the committee maintained a vigorous 
oversight schedule, including hearings on issues relating to 
the complexity of the task of reducing greenhouse gas 
emissions; the future of our electricity grid; government 
management of high-containment bioresearch laboratories; 
government regulation of medical devices and Medicare and 
Medicaid programs; business practices in the health insurance 
market the collection of consumer debt, a broadband program 
created by the Recovery Act; and cybersecurity issues, among 
many others.
    At the beginning of the year, I asked for an increase in 
funds so that the committee could hire staff to fill gaps in 
expertise and ensure sufficient support for the heavy 
anticipated workload facing the committee and its 
subcommittees. I was pleased that the committee received a 8.3 
percent increase over the previous year's funding.
    Consistent with our request, the committee used those funds 
to hire staff, including a senior Medicare expert, a senior 
attorney with significant experience in environmental 
regulatory work, and staff for the chairman emeritus to assist 
with the health reform effort.
    Overall, after outstanding invoices and obligations are 
paid, the committee will have spent 99 percent of the total 
funds provided to us. I believe this figure underscores that 
our budget for this year was planned and executed in a 
responsible manner.
    The Committee on Energy and Commerce will continue to carry 
out a full agenda in the second year of the 111th Congress. We 
believe the funds provided for the committee in the funding 
resolution are consistent with the projected budget needs of 
the committee for the remainder of this Congress.
    Thank you for this opportunity to testify.
    [The statement of Mr. Waxman follows:]

    [GRAPHIC] [TIFF OMITTED] T5482A.028
    
    [GRAPHIC] [TIFF OMITTED] T5482A.029
    
    [GRAPHIC] [TIFF OMITTED] T5482A.030
    
    [GRAPHIC] [TIFF OMITTED] T5482A.031
    
    Mr. Gonzalez [presiding]. Thank You, Chairman Waxman.
    At this time the Chair will recognize Mr. Barton, the 
ranking member.

STATEMENT OF THE HON. JOE BARTON, RANKING MEMBER, COMMITTEE ON 
                      ENERGY AND COMMERCE

    Mr. Barton. Thank you, Chairman Gonzalez and Congressman 
Harper. It is always good to appear before the House 
Administration Committee. The Republicans or the minority on 
the Energy and Commerce Committee have fought Chairman Waxman 
and the majority, as you well know, Mr. Chairman, tooth and 
nail on all or most of the policy issues that he just 
enunciated. I am happy to report that on most of the policy 
initiatives, while they have grudgingly gotten out of the 
committee, they have not become law because we have been able 
to bloody him so much that he has not had the energy to push it 
forward.
    But on the administrative front, Mr. Chairman, we have 
worked in, if not perfect harmony, certainly a spirit of 
fellowship and goodwill. We have had a fair allocation. Two-
thirds of the budget, as it should, has gone to the majority 
and one-third, as it should, has gone to the minority.
    Chairman Waxman indicated that the majority has spent 99 
percent of their budget allocation. I am proud to report that 
minority has spent only 98 percent; so we have doubled the 
amount we are turning back, and I am very proud of that. Even 
though we had less to spend, we are turning more back.
    So all we ask, Mr. Chairman, is fairness. The two-thirds/
one-third allocation, which has been the norm in the committee 
under former Chairman Dingell, Chairman Bliley, Chairman 
Tauzin, myself, and now Chairman Waxman, we are very 
appreciative of. So we hope the budget allocation continues on 
that path.
    If I could change the subject just a second, as a Member I 
want to talk about this new password protection program for our 
BlackBerries. I am not opposed to a password. My initial 
password was being triggered every 2 minutes, which makes it 
almost impossible to use. I have asked the House Information if 
we could lengthen the time. We have got mine up to 30 minutes. 
I would very respectfully request we give Members the 
discretion to go up to 6 hours or something so that I am not 
continuously having to rekey my password. I don't use my 
BlackBerry continuously like some Members. So every time I have 
to use it, I have got to key in--key in the pass code, and 
sometimes in the heat of the moment, being an Aggie, I forget 
what it is and then I get frustrated and then I yell at my 
staff, and it is just a bad situation, Mr. Chairman. So if you 
could encourage the administrators to give us a little bit more 
time on our password length, I would appreciate that.
    [The statement of Mr. Barton follows:]

    [GRAPHIC] [TIFF OMITTED] T5482A.032
    
    Mr. Gonzalez. You ask much of the committee, but we are 
going to be looking into it. As a matter of fact, it was just 
this morning I reset mine to 30 minutes. Mine was at a few 
minutes. So I understand.
    At this time I am going to recognize Mr. Harper for any 
questions he may have.
    Mr. Harper. Thank you, Mr. Chairman. I know during the 
hearings last year there was talk about transitional costs due 
to the change in chairmanships in order to compensate some of 
the staff on that transitional basis.
    Have those costs subsided or are we looking at perhaps 
future savings as a result of that?
    Mr. Waxman. The costs turned out to be approximately 
$150,000. This number reflected the salary costs related to 
maintaining staff from the 110th Congress through the 
transition period; so we were pretty clearly on the mark as to 
what we would need for that purpose.
    Mr. Harper. And do you care to respond to the savings ratio 
statement by Ranking Member Barton?
    Mr. Waxman. I heard it. It sounded pretty good.
    Mr. Harper. No other questions, Mr. Chairman.
    Mr. Barton. There will be other transitional costs next 
year when the Republicans are transitioning back into the 
majority. So we will have 150,000 or maybe we can do it for 
100,000 next year.
    Mr. Gonzalez. You can't say that Mr. Barton does not miss 
an opportunity.
    Mr. Waxman. We will make an argument to the American people 
not to change things because it will just cost more money.
    Mr. Gonzalez. Mr. Waxman, I am going to join you in that. 
But quickly, it is interesting, I mean if you think a year ago 
you come in and you ask for the budget, today you are here 
showing us the use of it and you're under budget and such. But 
was there anything coming in as new chairman of obviously a 
committee with huge jurisdiction and the workload and what was 
produced, was there any unforeseen challenge, anything that you 
didn't anticipate? Obviously the budget went well, but what was 
the challenge coming in as the new chairman of this committee 
when it comes to the budget?
    Mr. Waxman. Well, we had an extensive legislative agenda, 
as I mentioned in my opening statement, as well as an oversight 
agenda, and that is going to continue on in the next year as 
well. We plan to address Toxic Substances Control Act, the 
public safety network interoperability, spectrum policy, 
broadband stimulus, FCC reform, workforce programs, and Title 
VII of the Public Health Service Act, reauthorization of the 
substance abuse and mental health services block grants, 
cybersecurity threats to the electricity grid, and other issues 
relating to the Safe Drinking Water Act.
    I am hopeful that these issues will be less polarizing and 
less partisan than we found some of the issues in this previous 
year as we looked at climate change and health care, which saw 
us pretty much voting by and large, not exclusively, but by and 
large on a party line basis. But I am hopeful that we can get 
back to a time that I remember well in the Congress when we 
didn't act as Democrats and Republicans, where we were looked 
as solvers of problems, trying to get the best judgments and 
advice from anybody.
    Mr. Gonzalez. Thank you very much, Mr. Waxman. Anything 
further?
    Mr. Waxman. Could I comment on another subject?
    Mr. Gonzalez. Yes, go right ahead.
    Mr. Waxman. In the Visitors Center I have been surprised to 
find that our BlackBerries are unable to work. We, when I was 
chairman of the Oversight and Government Reform Committee, 
provided that the subway systems in the Washington area should 
have the system in place to allow a spectrum that would be 
available for handheld devices, and it just seems to me, unless 
there is a national security reason, we ought to be able to 
have the room in the Visitors Center where Members get together 
for meetings and caucuses and whatever, a place where we should 
be able to get access to the spectrum.
    Mr. Gonzalez. Mr. Waxman, I am just being informed as you 
were expressing your concerns that that actually is being 
addressed as we speak and it is being contracted and such. So 
hopefully we will be addressing that particular problem.
    And Mr. Barton, the 30-minute reset we are going to find 
out what we can do about that.
    But again thank you very much for your testimony.
    Mr. Waxman. Thank you.
    Mr. Gonzalez: I see Mr. Lucas out there. We're actually 
running a little early and we don't have Mr. Peterson here yet, 
but if you want to come up and have a seat. Wherever you're the 
most comfortable. You come up, we're going to start talking 
about Oklahoma State Cowboys football. What does next season 
look like?
    Mr. Lucas. Well, after the joys of the Cotton Bowl this 
time . . . once again, that eternally optimistic Oklahoma State 
enthusiasm kicks in. But the good citizens of the great state 
of Texas were wonderful hosts for the Cotton Bowl, even if it 
did turn out to be a challenging game, Mr. Chairman.
    Mr. Gonzalez. Ha! A lot of things could have gone better 
for many teams. I was in Pasadena for the Texas game, so that 
was painful.
    Mr. Lucas. I understand and my sympathies entirely.
    Mr. Gonzalez. I tell you! We like going around telling 
people that we almost beat Alabama with a freshman quarterback. 
That's the only way you can get away with that. Mr. Harper, you 
can appreciate the spin that we had to give that one. It was a 
very interesting game. It's a heartbreaker, I tell you.
    Mr. Lucas. And being a proud supported of the Big 12 
family, I cheer for our colleagues.
    Mr. Gonzalez. Almost did it. Well, it'll be interesting.
    Mr. Harper. Mr. Chairman, being an SEC fan, I'll just keep 
quiet.
    Mr. Gonzalez: I figured you were going to chime in there
    Mr. Lucas. And, probably, until our budget's verified, I 
should agree with that, too, as a witness.
    Mr. Gonzalez. The chairman is here. Welcome, Mr. Chairman.
    Mr. Peterson. Sorry I am late.
    Mr. Gonzalez. You are still 2 minutes early, but we are 
going to start early. So next we are going to be reviewing the 
use of funds by the Committee on Agriculture and we have the 
chairman and ranking member. Each of you of will have 5 
minutes, and then we will have questions that will be posed by 
members of the committee as they so desire.
    Chairman Peterson.<greek-l>fb deg.

 STATEMENT OF THE HON. COLLIN C. PETERSON, CHAIRMAN, COMMITTEE 
                         ON AGRICULTURE

    Mr. Peterson. Thank you, Mr. Chairman and Members of the 
Committee, for inviting us to share our progress report on the 
budget during the past year and the year ahead, and I 
appreciate my good friend the Ranking Member, Mr. Lucas, for 
joining me today in this discussion.
    During the past year the Agriculture Committee addressed a 
full slate of issues, including primarily the financial 
derivatives reform and conducting oversight on the 
implementation of the farm bill that we passed in 2008. In 
addition, the Committee spent significant time working with 
other Committees on a number of other major issues.
    When we last sat before this Committee to present our 
proposed budget, we outlined the need for a modest increase in 
the Committee's budget to accommodate the legislative and 
oversight agenda that we expected to pursue. While we succeeded 
in addressing many areas on our agenda during the past year, a 
great deal of work remains to be done in the year ahead.
    Mr. Chairman, a major priority of the Committee during the 
last year was the completion and enactment of strong 
regulations to address the lack of transparency and oversight 
of derivatives markets. After extensive hearings on these 
markets in late 2008, particularly concerning the markets for 
unregulated over-the-counter swaps contracts and their role in 
the financial meltdown, our Committee moved swiftly after the 
111th Congress convened to pass a strong bipartisan bill last 
February. That bill served as a marker as we worked with other 
Committees and the Administration on broad financial regulatory 
reform.
    Last summer the Committee reviewed the Administration's 
derivatives regulation proposals; and in October we passed 
another bill to strengthen our earlier effort; and finally in 
December, an amendment was made to the financial regulatory 
reform bill on the floor containing many of the principles 
passed by our Committee and was included in the final version 
of legislation that passed the House.
    During the past year, the Committee also devoted 
significant time and resources to monitoring the implementation 
of the 2008 Farm Bill. We held numerous hearings and associated 
meetings with Administration officials to ensure that 
Congressional intent is followed as provisions are carried out. 
These are essential programs for our farmers and ranchers in 
rural communities, environmental conservation, renewable energy 
production, and those who during these difficult economic times 
must increasingly rely on the nutrition programs that are 
funded by the farm bill.
    Moving forward, the Committee will continue to work on 
these important and timely issues, and in the months ahead we 
will begin to hold hearings and consider new ideas for the next 
farm bill.
    In March we plan to have hearings here in Washington and 
then over the next year we will hold field hearings around the 
country so that producers and consumers can tell us how the 
current farm bill is working and what they would like to see in 
the next farm bill. This is a resource-intensive process, but 
as we have learned from previous Farm Bills, this homework is 
an invaluable component of successful legislation because it 
allows us to understand the implications and the impact of 
existing policies as we gather new ideas for those who are on 
the ground and actively participating in these programs.
    Also, I believe that getting an early start helps us to get 
to a bipartisan end, which is not always easy to do. We, 
however, work very hard in the Agriculture Committee to make 
sure that we have a bipartisan product and we intend to do that 
again this farm bill.
    Thank you for this opportunity to provide a status report 
on the Agriculture Committee's budget. We continue to use the 
resources provided to us wisely to carry out the Committee's 
important work, and I am happy to answer any questions that you 
or the Committee will have and we will try to continue to work 
in a bipartisan fashion to accomplish our agenda in the 111th 
Congress.
    Thank you.
    [The statement of Mr. Peterson follows:]

    [GRAPHIC] [TIFF OMITTED] T5482A.033
    
    [GRAPHIC] [TIFF OMITTED] T5482A.034
    
    [GRAPHIC] [TIFF OMITTED] T5482A.035
    
    [GRAPHIC] [TIFF OMITTED] T5482A.036
    
    [GRAPHIC] [TIFF OMITTED] T5482A.037
    
    [GRAPHIC] [TIFF OMITTED] T5482A.038
    
    [GRAPHIC] [TIFF OMITTED] T5482A.039
    
    [GRAPHIC] [TIFF OMITTED] T5482A.040
    
    [GRAPHIC] [TIFF OMITTED] T5482A.041
    
    [GRAPHIC] [TIFF OMITTED] T5482A.042
    
    Mr. Gonzalez. Thank you, Mr. Chairman. Mr. Lucas.

STATEMENT OF THE HON. FRANK D. LUCAS, RANKING MEMBER, COMMITTEE 
                         ON AGRICULTURE

    Mr. Lucas. Thank you, Mr. Chairman. I am pleased to be here 
today to satisfy the requirements of House Resolution 279.
    As you just heard from Chairman Peterson, our committee has 
enjoyed a long history of bipartisanship, and we have continued 
this cooperation throughout the first session of the 111th 
Congress.
    As we testified last year, the committee continues to 
oversee the implementation of the Farm Bill and monitor the 
effects of the economic downturn on rural America. I am 
encouraged by and support Chairman Peterson's interest in 
starting our traditional series of Farm Bill field hearings 
early in the implementation process. Given the challenges of 
living in rural America, it is often easier to take Congress to 
the countryside than to bring the country to the city, this 
city.
    In addition to bipartisanship, the Ag Committee has a long 
history of fiscal responsibility. The travel proposed by 
Chairman Peterson will cost money, but it is my intention to 
work with Chairman Peterson and the members of the committee to 
ensure proper stewardship of taxpayer moneys.
    Again, I thank the chairman and the ranking member for this 
opportunity to testify today.
    [The statement of Mr. Lucas follows:]

    [GRAPHIC] [TIFF OMITTED] T5482A.043
    
    [GRAPHIC] [TIFF OMITTED] T5482A.044
    
    Mr. Gonzalez. Thank you very much, Mr. Lucas. Mr. Harper 
and Mr. Lungren had to go over to Judiciary on a vote, so you 
get me and that is going to be it.
    But I do have a question because staff had actually briefed 
us a little bit in that in your request a year ago, you 
indicated that it was going to take the resources that 
obviously you were requesting regarding the 2007 Farm Bill. 
Then on top of it we had the regulatory issue come up and of 
course that portion of regulatory reform that fell under your 
jurisdiction. Mr. Lucas has indicated obviously you will still 
be continuing some of that work. The budget at this point, Mr. 
Chairman, is adequate? You feel everything--right now obviously 
you did not spend all of the funds----
    Mr. Peterson. Right.
    Mr. Gonzalez [continuing]. But I think it is going to be a 
busy second session.
    Mr. Peterson. Yes, I think the budget is adequate. I 
believe that for the last two budgets we have come in about 
$700,000 underneath the budget. I think the cushion that we 
have there, if it stays where it was, then we are going to be 
fine. It depends on how many field hearings we have and those 
kind of costs. We are making some changes on our side on the 
staff level; beefing up a couple areas. I learned going through 
the financial derivatives process that we had one staffer 
covering commodities, derivatives, and crop insurance, and it 
was too much. Therefore, we are trying to bring in people to 
focus on those individual areas. So there may also be a little 
increase in staff.
    We have to look at the crop insurance system. The 
Administration is doing a Standard Reinsurance Agreement (SRA) 
right now with the crop insurance people. We still have to 
finish the regulatory reform and we just started on the farm 
bill. But I think the resources we have been given are adequate 
and we--as Mr. Lucas said, we are tight fisted. We are not 
going to spend any money that we don't have to, and we are 
going to continue on that path like we have in the past.
    Mr. Gonzalez. Thank you, Mr. Chairman.
    Mr. Lucas, anything you want to add?
    Mr. Lucas. I would just simply note, Mr. Chairman, in this 
series of Farm Bill field hearings we will be compelled in the 
coming year to go to a variety of places because agriculture in 
this country tends to grow commodities by regional area and it 
will be necessary to go to those regions to conduct those 
hearings to get that kind of input. So while we spent a great 
deal of time in this last year on things like derivatives, 
meeting here in the Nation's capital, when we do these field 
hearings we will be going to the countryside and there is just 
a lot of countryside out there.
    Mr. Gonzalez. Thank you both. We appreciate your testimony 
and your report today.
    Mr. Peterson. Thank you very much, Mr. Chairman.
    Mr. Gonzalez. The committee will stand in recess until 1 
o'clock when we will take up Veterans' Affairs use of funds. 
And we will stand in recess.
    [Recess.]
    The Chairman [presiding]. Good afternoon. I would like to 
call the Committee on House Administration to order. And I 
thank you for being here. We appreciate your coming here from 
the Veterans' Affairs Committee.
    As you know, we had our hearings earlier in the year and we 
agreed and you agreed, thankfully, to coming back to let us 
know just how you are making out after 1 year of funding and 
hopefully maybe let us know any problems if there were any 
problems or things you may need. Maybe we can be helpful; maybe 
we can't. And if there is anything that you may want to give 
back to some other committee it could be helpful, which we 
probably think that that might not happen. But we appreciate 
your being here. And I would ask Mr. Harper if he has any 
remarks at all. No opening remarks.
    Thank you, and the floor is yours, Mr. Chairman.

   STATEMENT OF THE HON. BOB FILNER, CHAIRMAN, COMMITTEE ON 
                        VETERANS AFFAIRS

    Mr. Filner. Thank you, Mr. Chairman and Mr. Harper. We are 
here together, Ranking Member Buyer and myself, in joint 
support of our budget.
    We oversee the second largest Federal agency, employing 
over 260,000 people with a budget of over $108 billion. Our 
first session budget was $3.761 million-plus, and we spent 
99.46 percent, better than Ivory soap, I think. Our December 
report shows we have spent $3.614 million-plus but we have 
outstanding budget obligations of 126,000-plus, which includes 
the salaries that will be given out January 1st and 2nd; so our 
ending balance will be $20,000-plus.
    As you know, our committee splits the salary allotment by 
two-thirds to one-third and the minority controls its own 
payroll budget.
    We held this year, Mr. Chairman, 54 hearings, two of which 
were field hearings, five roundtables, five joint hearings with 
the Senate, and 18 markups. And our 2009 allotment allowed us 
to pay for those field hearings and oversight trips. We were 
also able to begin participation in webcasting our hearings and 
upgrade and replace two servers, and our wish list for next 
year includes a new constituent management mail system.
    I think we have been providing high quality oversight to 
ensure that veterans and their families and survivors have the 
highest quality of care and services. So I think we are using 
our money wisely and the veterans are getting their money's 
worth from our oversight. And I am prepared to respond to any 
of your questions.
    [The statement of Mr. Filner follows:]

    [GRAPHIC] [TIFF OMITTED] T5482A.045
    
    [GRAPHIC] [TIFF OMITTED] T5482A.046
    
    The Chairman. Thank you.
    Mr. Buyer.

STATEMENT OF THE HON. STEVE BUYER, RANKING MEMBER, COMMITTEE ON 
                        VETERANS AFFAIRS

    Mr. Buyer. Thank you, Mr. Chairman, Mr. Harper. By way of 
opening, my staff informs me that your staff has been very 
responsive and very good to work with. So I appreciate that.
    The Chairman. Thank you.
    Mr. Buyer. I support the request as outlined by Chairman 
Filner, and very briefly, I support it because I believe it 
does treat the minority fairly in all respects. It maintains 
the two-thirds/one-third division of personnel staffing and 
funding. It is structured similarly to past committee budgets 
and it has also been transparent. The majority shares numbers 
with us monthly, and the oversight travel has worked very well, 
meaning wherever there has been a request from the minority to 
travel anywhere in the country or U.S. Territories, the 
majority has been responsive and so has the VA to ensure that 
travel is done. So I am very appreciative of that.
    Chairman Filner has shared all pertinent information with 
me and staff, and I appreciate his openness in how he has also 
developed his budget. As I said, he has agreed to monthly staff 
reviews of the committee's budget execution. I want to thank 
Bernie Dotson. The reason the chairman can tell you that they 
spent 99.46 percent is because of Bernie, sitting right here, 
doing a very, very good job. Is that right, Colonel?
    Mr. Shorter. That is right.
    Mr. Buyer. Making sure that the dollar is followed. So when 
you have a budget of the size that the chairman has, he 
definitely doesn't want to go over. So I know he is equally 
appreciative that those dollars are watched and taken care of.
    So I am satisfied this has been a reasonable request and it 
will provide the adequate resources for Committee on Veterans' 
Affairs to conduct its business on behalf of our Nation's 
veterans. I am pleased to support it and if you have any 
questions I will be more than happy to answer.
    [The statement of Mr. Buyer follows:]
    The Chairman. I have one question. What percent? Ninety-
nine point?
    Mr. Filner. Four six.
    The Chairman. Isn't Ivory soap 99.44 or something?
    Mr. Filner. Better than Ivory soap. We are clean as clean 
can be.
    The Chairman. Mr. Harper, do you have any questions?
    Mr. Harper. I would just like to compliment you on the 
things that you have been doing, certainly in the way that the 
requests for the travel by minority, the way those all have 
been handled. I would just like to say I appreciate the job you 
all have been doing.
    Mr. Buyer. Mr. Chairman.
    The Chairman. Yes.
    Mr. Buyer. I would like you to know that under the 
Republican House Conference rules we still maintained our 
rotation of committee Chairs. So at the end of this year, it 
ends the 6 years of my leadership position on Veterans' 
Affairs. There is the potential--I am not saying it's going to 
happen but we have to be aware as we do our budgeting--that I 
could have up to five members of my staff who are eligible for 
retirement. So what I have done here is when I look at my 
staff, it is a very senior staff. So for military experience 
there is 85.5 years; VSO experience, there is 12.5; veteran-
related Hill experience there is 81.25. Total Hill experience, 
115 years, and that is out of nine people. So I am--that means 
I have a lot of accrued leave. When you think about that, that 
is a lot of accrued leave; so we have to make sure we get that 
budgeted and taken care of and so if your staff could be very 
helpful to us--I don't know, is accrued leave going to be 
totally our----
    The Chairman. It is now. After you put in your plug, it may 
not be, but right now it is. We will take that into 
consideration.
    Mr. Buyer. I am just asking will you work with us?
    The Chairman. Yes, absolutely.
    Mr. Buyer. We are going to try to maintain the budgets as 
we set out but there is something in front of me that we 
can't----
    The Chairman. Yes, that somebody can even have their time 
and run their time out and leave you short. I understand. We 
will absolutely look at that and I will have our staff contact 
your staff and make sure you are not left shorthanded just 
because of a budgetary problem.
    Mr. Buyer. Right. I just wanted to put you on notice.
    The Chairman. Thank you.
    Mr. Filner. Thank you.
    Mr. Buyer. Thank you.
    The Chairman. Good afternoon and thank you for coming in 
here this afternoon. As you know, when we were here a year ago 
questioning your budget, we asked that everybody come back 
after a year and let us know how you are doing. We know we did 
cut some expenditures from you. We want to make sure that you 
are functioning properly and have everything you need to be 
able to function, and hopefully we can be helpful. We want to 
try to be. We don't know if we can or not but we will try. So 
we appreciate your being here. You can start right now if you 
like.

STATEMENT OF THE HON. HOWARD L. BERMAN, CHAIRMAN, COMMITTEE ON 
                        FOREIGN AFFAIRS

    Mr. Berman. Thank you very much, Mr. Chairman and Mr. 
Lungren. I appreciate the opportunity to testify regarding the 
Committee on Foreign Affairs' use of funds during the first 
session of the 111th Congress. In that first session the 
committee was allocated a total budget of $9,243,406, which 
represented an increase of 4.78 percent over the previous year. 
Consistent with past committee practice, including when 
Republicans were in the majority, 12 percent of the total 
budget was set aside for administrative expenses for both the 
majority and minority offices. The remaining 88 percent was 
allocated to staff salaries, of which the majority received 
66.6 percent and the minority 33.3 percent, carried out to the 
infinite decimal point.
    Over the past year the majority has experienced some gaps 
in staffing as a result of staff leaving to work in the 
executive branch and the private sector, particularly among our 
senior staff. However, as of today the majority is almost fully 
staffed. We expect to be 100 percent staffed in the near future 
and for the remainder of the 111th Congress.
    As of January 21, 2010, the committee had a budget surplus 
of $655,668. That figure does not reflect approximately $32,000 
of information technology equipment purchased for the minority 
and majority offices. After these payments are processed our 
final year surplus should be approximately $623,668.
    Mr. Chairman, I believe we have been responsible stewards 
of taxpayer funds and we have treated the minority in a fair 
and balanced manner on matters relating to the committee 
budget. It has been an honor to work with my ranking member, 
Ms. Ros-Lehtinen, and I would be happy to answer any questions.
    [The statement of Mr. Berman follows:]
    The Chairman. Thank you. Ms. Ros-Lehtinen.

  STATEMENT OF THE HON. ILEANA ROS-LEHTINEN, RANKING MEMBER, 
                  COMMITTEE ON FOREIGN AFFAIRS

    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman, Ranking 
Member Lungren, members of the committee. I would like to 
commend you for scheduling this hearing to assess the status of 
our committee funding resolution.
    The Committee on Foreign Affairs has had a long and rich 
history of working in a bipartisan manner to advance our 
Nation's security agenda and the foreign policy priorities 
around the globe. Generally, this collaborative approach 
continued during the first session of this Congress with a 
generally equitable majority-minority distribution of the 
committee's funds and resources. Chairman Berman and I continue 
to make progress on a number of issues relating to minority 
rights, ranging from subcommittee minority spaces and equipment 
to consultation with, or reciprocal treatment of, the minority 
on the activities related to the Trans-Atlantic Legislators 
Dialogue, TLD, and the NATO Parliamentary Assembly, NATO-PA.
    With respect to TLD and NATO-PA, I would like to raise 
concerns about the expenses associated with these sessions and 
hope that, in light of the economic challenges facing our 
Nation, we would seek to be more cost effective in planning the 
logistics, considering the venues, and coordinating the agenda. 
Recently with the TLD session held in New York, I requested 
that our one GOP staff member stay overnight at a more 
economical hotel rather than at the Waldorf Astoria with the 
rest of the delegation. Regrettably, the majority refused to 
authorize payment for the less expensive option and I was 
actually forced to withdraw that staff member and have them 
provide support and advice to the members attending that 
conference via e-mail and telephone. It is my hope that this 
will amount to an isolated incident and that requests that I 
make pertaining to such minority matters would be honored.
    In February of last year when we appeared before you, 
Chairman Berman and I presented a budget request aimed at 
ensuring the Committee on Foreign Affairs have adequate 
resources to exert proper oversight. I do not feel that we have 
done enough in this field. Our Nation and our constituents 
would be better served if we dedicated more of our time and 
resources to addressing the waste, fraud, and abuse or 
mismanagement of U.S. Government programs that the committee 
authorizes. In particular, I believe that the committee should 
hold oversight hearings on reports issued by the GAO, 
addressing such serious matters as the provisions of nuclear 
assistance to Iran and Syria by the International Atomic Energy 
Agency and how U.S. contributions are facilitating such 
assistance and technology transfers. There are several such 
requests submitted by the minority that we are waiting feedback 
on.
    Lastly, we should explore the possibility at the end of 
each calendar year of returning unused excess committee funds 
to the Treasury. Rather than wait until the end of the Congress 
and return in bulk to the Treasury we should consider returning 
these surplus funds on a yearly basis. We should highlight the 
fact that we have come in under budget and have planned 
effectively. We all have to do our part to address this rapidly 
growing public debt and annual budget deficit.
    And I have other remarks for the record but that will about 
do it for my oral presentation.
    [The statement of Ms. Ros-Lehtinen follows:]

    [GRAPHIC] [TIFF OMITTED] T5482A.047
    
    [GRAPHIC] [TIFF OMITTED] T5482A.048
    
    The Chairman. I thank the lady.
    Ms. Ros-Lehtinen. Thank you, gentlemen.
    The Chairman. Mr. Lungren, any questions?
    Mr. Lungren. Thank you very much, Mr. Chairman.
    Chairman Berman, I hope you don't feel uncomfortable 
sitting under the watchful gaze of our former colleague, Mr. 
Thomas there with whom----
    Mr. Berman. Well, now I feel a little uncomfortable.
    Mr. Lungren [continuing].With whom you worked so closely 
over the years.
    Mr. Berman. How many rooms does he have his portrait in?
    Mr. Lungren. Not enough probably. You could ask Bill.
    Mr. Berman. Could ask him.
    Mr. Lungren. Yes. It reminds me when we were hanging the 
portrait of Mr. Sensenbrenner for one of his committees and Mr. 
Armey was there as the master of ceremonies, and after the 
member of the clergy had given the benediction Dick Armey said, 
Padre, you may think you have a close connection with God but 
now I would like to introduce someone who actually knows how to 
perform miracles, the artist who made Jim Sensenbrenner look 
this good. And I will say that artist was capable of miracles.
    Chairman Berman, I just heard a little bit from Ms. Ros-
Lehtinen about whatever happened in New York. It is my 
understanding both sides have worked to reconcile that and----
    Mr. Berman. Well, we are going to be--I personally--neither 
I or Ileana were part of that Trans-Atlantic Dialogue. The one 
thing I can assure you is we will not be having any more Trans-
Atlantic Dialogues in New York at the Waldorf Hotel while I am 
chairman. But----
    Ms. Ros-Lehtinen. Mr. Chairman, if I could, I was not 
telling the chairman that he could not have the conference 
wherever he wishes, but if I choose to have my staffer stay 
elsewhere, we were turned down and that----
    Mr. Lungren. Hopefully it wasn't a dangerous place you were 
sending your----
    Ms. Ros-Lehtinen. It was not, of course, as it was just a 
few blocks down from the Waldorf and did not reflect any cost 
as the reservation at the Waldorf was easily canceled. This 
would have been a savings. The GOP Member who attended the 
conference was upset. I was upset. And there was just no reason 
for that to happen.
    Mr. Berman. I gather that the reason that decision was 
made, and it was unfortunate, was a group of rooms had been 
booked at the hotel; so they were obligated to pay those rooms. 
And did not want to incur the cost of paying for two hotel 
rooms for one staffer. But we are going to be more careful.
    Mr. Lungren. We can make sure we work those things out.
    Mr. Berman. By and large what I found so far we sometimes--
when something becomes a problem the sooner the two of us learn 
about it and talk about it, the easier we are to work through 
it.
    Mr. Lungren. I just wanted to make sure the two of you can 
talk those things out in the future.
    Mr. Berman. I think we will. That was unfortunate.
    Mr. Lungren. Let me ask this question. Last year I recall 
at this hearing you were talking about some additional 
obligations you had because of activities I think with the 
Helsinki Commission, if I am not mistaken, and there was a 
question about whether you would have enough funds to cover 
that. We did not grant you as we didn't grant--I don't think we 
granted any committee their full request. I just want to make 
sure you were able to handle that. You folks must have worked 
to ensure that you could take care of that within your budgets; 
is that correct?
    Mr. Berman. Yes. I am trying to think now whether--we 
enacted the Tom Lantos Human Rights Commission and then 
separately continued the House Democracy Assistance Commission 
as well as provided some additional assistance because John 
Tanner was made Chairman of the North Atlantic Assembly. Doug 
Bereuter had been the previous American Member of Congress to 
have chaired it and that was done then, and we ended up working 
it through with the budget we were allotted even though it 
wasn't everything we asked for.
    Mr. Lungren. I just wanted to make sure----
    Mr. Berman. Yes. And both of those commissions, as well as 
the North Atlantic Assembly, are quite active.
    Mr. Lungren. Excellent.
    Mr. Berman. The Trans-Atlantic Dialogue is a different 
group than those three. That is really the U.S. To the European 
Parliament.
    Mr. Lungren. And I just want the record to reflect again 
what you said in your statement that you folks did not bust 
your budget. You actually had money remaining and helped us out 
overall there with the overall legislative budget. So we thank 
you for that.
    Mr. Berman. Thank you.
    Mr. Lungren. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Harper.
    Mr. Harper. No questions. Thank you.
    The Chairman. No questions. Thank you both for coming.
    Mr. Berman. Thank you.
    Ms. Ros-Lehtinen. Thank you.
    The Chairman. This hearing of the Committee on House 
Administration will be adjourned until after the votes, 
approximately 2 o'clock, 2:15. Thank you.
    [Recess.]<greek-l>fb deg.
    The Chairman. I would like to call the Committee on House 
Administration back to order and thank the gentlemen for 
appearing in front of us today.
    As you know, when we did our budget for the committees, we 
asked them to come back in a year, and thank you for doing 
that, telling us how you are getting along and just how we 
could be helpful, how you could be helpful, and how you are 
managing. Unfortunately, I know we had to cut some funding, but 
I know Transportation is doing well, it is extremely active, so 
I know you are getting along.
    I don't really understand why this is happening, but I hear 
that it is Mr. Mica's birthday today. I thought you stopped 
celebrating. I know I did a while ago. In any case, happy 
birthday to you.
    We will start with Chairman Oberstar.

STATEMENT OF THE HON. JAMES L. OBERSTAR, CHAIRMAN, COMMITTEE ON 
               TRANSPORTATION AND INFRASTRUCTURE

    Mr. Oberstar. Thank you, Mr. Chairman. Mr. Mica and I both 
appreciate the opportunity to be with you, Mr. Brady and you, 
Mr. Lungren, and review where we are and account for our 
allocation of funding.
    I sent a friend a birthday card recently with the 
connotation, ``How old would you be if you didn't know how old 
you were?'' It is fun to think about.
    This committee allocated us $10,237,447 in your budget 
resolution. We have allocated $9,054,321. There are $108,170 in 
outstanding obligations yet to be paid from our 2010 funds. We 
take great pride in the work of this committee. I keep a report 
card in my pocket, not only of the results of the stimulus 
programs under our committee's jurisdiction, but also of the 
hearings, markups, bills and resolutions reported to the House, 
bills and resolutions passed by the House, and public laws and 
resolutions.
    Not only are we the largest committee in the House or the 
Senate, we are the most active. We act on initiatives of 
Members of both sides of the aisle. Whatever their interests or 
concerns are, we respond to those.
    In the first session of this Congress, we moved 65 bills 
and resolutions through full committee. Key elements of that 
number passed the House and were transmitted to the Senate. But 
among those are FAA authorization, $50 billion, the Senate 
hasn't acted on it 2 years in a row; authorization for the 
Coast Guard, restructuring, changes in the Coast Guard 
operation, new mandates for the Coast Guard Academy, minority 
outreach and inclusiveness. That is long overdue in the Coast 
Guard. We have that in this legislation. The Senate hasn't 
acted on it. That is a $10 billion authorization.
    We have also moved legislation to improve Maritime 
workforce development, cruise vessel safety, water quality 
investment, assistance to State and local governments to reduce 
damage caused by natural hazards through the Predisaster 
Mitigation Program of FEMA.
    We also moved legislation creating a National Women's 
History Museum. We moved the bill to reauthorize State 
revolving loan funds, to fund wastewater treatment facilities 
across the country. It hasn't been authorized in 15 years. We 
moved it in the last Congress and moved it again in the first 
session of this Congress. Unfortunately, the Senate hasn't 
acted on it. But we have done our portion.
    Every 30 days we hold a hearing in the full committee on 
those portions of the stimulus that are under our committee's 
jurisdiction, and today we can track 760,000 direct jobs and 
jobs created in the supply chain under highway, transit, fixed 
guideway, aviation, wastewater treatment, Corps of Engineers, 
Federal public buildings, the Maritime Administration, 
shipbuilding that uses a lot of steel, and Coast Guard retrofit 
of bridges. We can account for 24,000 land miles of highway 
improvement throughout the Nation and 1,200 bridges built new 
or improved or expanded.
    That has required a great deal of staff effort, 13 hearings 
that we have held so far on the program and another one to come 
next week. So I think we have well and effectively used, 
invested our fund. Most of the budget, nine-tenths of it, goes 
to staff. One-third of our allocation goes to the Republican 
side for their staff salary requirements.
    We expect that in 2011, our expenses will be comparable to 
or just slightly more than 2010. There are staff vacancies we 
still need to fill on our Aviation Subcommittee, and our Public 
Buildings and Grounds and the Economic Development 
Subcommittee. So we will proceed with those and make every 
effort to keep ourselves in line with the budget allocated by 
the committee.
    Thank you.
    The Chairman. Thank you.
    [The statement of Mr. Oberstar follows:]

    [GRAPHIC] [TIFF OMITTED] T5482A.049
    
    [GRAPHIC] [TIFF OMITTED] T5482A.050
    
    [GRAPHIC] [TIFF OMITTED] T5482A.051
    
    [GRAPHIC] [TIFF OMITTED] T5482A.052
    
    [GRAPHIC] [TIFF OMITTED] T5482A.053
    
    [GRAPHIC] [TIFF OMITTED] T5482A.054
    
    [GRAPHIC] [TIFF OMITTED] T5482A.055
    
    [GRAPHIC] [TIFF OMITTED] T5482A.056
    
    The Chairman. Mr. Birthday boy.

 STATEMENT OF THE HON. JOHN MICA, RANKING MEMBER, COMMITTEE ON 
               TRANSPORTATION AND INFRASTRUCTURE

    Mr. Mica. Thank you. I have been trying to avoid that, both 
in our T&I Committee this morning and throughout the halls of 
Congress, but I guess the word spread. I probably look a lot 
older today.
    I will just say that the Chairman has expressed the 
workload of the committee. It is the biggest committee in 
Congress and probably has been one of the most productive and 
bipartisan in its activity.
    On our side of the aisle, we have tried to be good stewards 
of taxpayers' dollars, return as much as we can. We expected 
probably even more activity on a major highway and 
transportation bill, and we may see some of that and we may 
have to ramp up a bit. But, again, strange things happen on the 
way down the track, so-to-speak, or down the highway, and we 
got sidetracked a bit on that.
    On our side, we have held the positions at a minimum, 
although we do need to fill a couple. We haven't got the big PR 
team they had, the Republicans had in the last Congress, nor 
have we lawyered up as much as they did. I think we are doing 
fine without that, and hopefully we will have some funds that 
the Congress can utilize, particularly in this time of huge 
Federal deficits.
    Thank you for your cooperation in supporting our work.
    The Chairman. Thank you.
    [The statement of Mr. Mica follows:]
    The Chairman. Mr. Lungren.
    Mr. Lungren. Thank you very much, Mr. Chairman.
    First of all, I thank both of you for appearing, and once 
again I happen to think these are good meetings, if for no 
other reason than to reflect on the fact that many committees 
are able to not only stay within their budget but actually 
return some money to our legislative function, and therefore to 
the Treasury, and in that way show that we don't follow the 
practice of spending every penny we have every year to make 
sure we don't get cut the next budget. So I appreciate what 
your committee has done.
    It is my understanding that the allocation between the two 
committees is appropriate and has been followed, as was 
suggested last year. I was going through my notes and I recall 
the hearing last year, the Ranking Member was talking about 
some increased independence on travel issues. Has that been 
resolved? Do I recollect that correctly?
    Mr. Mica. Let me say we have had some concerns about that, 
but if the table should turn in the election and I take the 
Chair position, I will have a separate allocation for the 
Minority for some independent travel. We don't have that right 
now.
    Mr. Lungren. But you folks appear to be getting along.
    Mr. Mica. Fine.
    Mr. Oberstar. I don't know of any problem about travel 
funds.
    Mr. Lungren. Mr. Mica is smiling more this year than last 
year in his appearance before us. That is a positive.
    Mr. Mica. That is one reason we have less money, because I 
don't use any--or very little of the funds.
    Mr. Lungren. Let me ask this about updating IT operations 
within your committee. Is that ongoing, and do you believe that 
your committee is getting the support it needs in the area of 
cybersecurity? That is, we have a unit here in the House that 
is trying to protect against cyberattacks from our individual 
offices and committees and so forth. One of the complaints we 
are having right now is the new limitation we have on 
BlackBerrys that arises out of our concern about cyberattacks.
    I just wonder if you have any thoughts on whether or not we 
are giving you sufficient support in that arena?
    Mr. Oberstar. Keven Sard is our committee cyber-guru, our 
technical expert, and he assures me that whatever support he 
has requested has been forthcoming from HIR, House Information 
Resources, and assures me that all security that is necessary 
for our computer system has been put in place.
    Mr. Lungren. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. I thank both of you. I appreciate it.
    We are going to jump ahead of Global Warming and go to 
Science and Technology. We will take them ahead of Global 
Warming.
    Thank you for appearing in front of us today. As we said to 
everyone else, we had hearings a year ago, with funding 
requested. We want to just double-check back and make sure 
everything is going okay and you have everything you need to be 
able to have a good, productive committee. So we appreciate 
hearing from you.

   STATEMENT OF THE HON. BART GORDON, CHAIRMAN, COMMITTEE ON 
                     SCIENCE AND TECHNOLOGY

    Mr. Gordon. Thank you, Chairman Brady and Ranking Member 
Lungren. We always look forward to this annual visit and we are 
glad to be back again. I will try to follow the Chairman's 2-
minute rule here and just first say we certainly appreciate the 
allocation you gave us last year. We have tried to use it 
judiciously.
    Last year we had a budget of slightly less than $7 million. 
We are projecting an overall surplus of $274,000. As most 
committees, most of our money goes to personnel, 93 percent. We 
have a little different situation in that we really need to 
have staff, most of them need to have a deep science kind of 
background. They are hard to find, they are expensive, the 
administration continues to poach them, or the private sector. 
So we are trying to grow some internally, but we appreciate 
your help with that.
    In terms of the other categories--travel, supplies and 
equipment--we are estimating a surplus of $32,000 in travel, 
$34,000 in equipment. We are over our budget in supplies, but 
we are told that some of the items that we had considered as 
equipment actually fall under the category of supplies, so we 
hope that is going to level out.
    We are going to continue our effort in terms of equipment 
to update in 2010 to replace our desktop computers. Every year 
that I have come here, I have told you that we hope--there is 
something called a Lectriever, a filing system that is well 
over 20 years old. I have told you each time we are going to 
try to replace that. I will tell you that again. And hopefully 
we will get that done this year.
    Mr. Hall and I and our staffs work well together, and I 
think you can anticipate that continuing this coming year.
    The Chairman. Thank you.
    [The statement of Mr. Gordon follows:]

    [GRAPHIC] [TIFF OMITTED] T5482A.057
    
    [GRAPHIC] [TIFF OMITTED] T5482A.058
    
    [GRAPHIC] [TIFF OMITTED] T5482A.059
    
    [GRAPHIC] [TIFF OMITTED] T5482A.060
    
    [GRAPHIC] [TIFF OMITTED] T5482A.061
    
    [GRAPHIC] [TIFF OMITTED] T5482A.062
    
    The Chairman. Mr. Hall.

STATEMENT OF THE HON. RALPH M. HALL, RANKING MEMBER, COMMITTEE 
                   ON SCIENCE AND TECHNOLOGY

    Mr. Hall. Mr. Chairman, members, I thank you. The Chairman 
has pretty well laid it out. I know the purpose of this meeting 
is to report on the budget and to ensure that we have received 
at least our allocation of one-third, and we have: one-third of 
the salary, one-third of the travel. Everything has been done.
    Bart is one of the most fair men I have ever known in my 
life and worked with. Sometimes he likes to know how many. We 
have 15 GOP staffers and 5 GOP designees and 1 on maternity 
leave, for a total of 21 staffers. We have an excellent staff 
of individuals from a lot of backgrounds.
    The Chairman always likes to recount the advanced degrees 
of the staffers. So far on the record, on the GOP staff we have 
three law degrees. I apologize for that.
    Mr. Gordon. That doesn't count.
    Mr. Hall. One has a doctorate and five have masters 
degrees. I graduated in a class of 38 and I graduated 38th, and 
I didn't know until 5 o'clock that afternoon that I was really 
going to graduate. I had to go across the street and borrow a 
coat to graduate in.
    One time I made four F's and a D and my dad punished me for 
spending too much time on one subject. So I don't have a 
masters or a doctorate degree. I have a law degree from SMU.
    The salary allocation is exactly two-thirds Majority and 
one-third Minority. They made sure to set aside a third of the 
travel budget, and if we fudged on that a little bit, we worked 
it out some way.
    Finally, in terms of equipment and supplies, the Majority 
has always responded to our requests and we have up-to-date 
technology and equipment. You inquired about that.
    Chairman Gordon probably would like to discuss his plans on 
upcoming legislative agenda. I know he is going to mention his 
desire to reauthorize the America Competes bill, as well as 
NASA. I applaud the Chairman for setting very ambitious goals. 
He worked on technology, engineering, math, STEM education. He 
is almost the father of that.
    While overall supportive, our primary goal was to continue 
to ensure that the taxpayers' dollars are spent wisely and 
efficiently. And along with my Republican colleagues, we are 
going to continue to assess legislation that creates new 
government programs and offer amendments to ensure that Federal 
programs are effective and run in a transparent and efficient 
manner.
    One thing I would like to say, whether it is on the record 
or off the record, the Chairman and I have had a very good 
working relationship. We have probably passed more beneficial 
legislation in numbers than any other committee, and it is 
because he is bipartisan. He has worked with us. I will miss 
working with him as he leaves the Hill for what I am sure is 
going to be fulfilling, next State over in Tennessee.
    I always said if it hadn't been for Tennessee, there 
wouldn't be a Texas. I think Bart told me one time there 
wouldn't have been a Texas anyway if there had been a back door 
in the Alamo. I don't agree with that. That was a heroic stand 
down there.
    But he is a fine legislative authority, a fine family man, 
really a fine athlete, and he is a super friend. I yield back.
    The Chairman. Thank you.
    [The statement of Mr. Hall follows:]
    The Chairman. Any questions, Mr. Lungren?
    Mr. Lungren. No. I am just happy to be here at the Bart 
Gordon retirement. I have heard shorter eulogies.
    I want to thank both of you. All we are attempting to do is 
to make sure your budgets are in accord with what you had 
thought they were when you came to us a year ago and that we 
have the one-third/two-thirds, and that we are doing what we 
need to do in the area of equipment for our committees, to make 
sure we can do the job that is necessary.
    Again, I appreciate the fact that you are able to report 
that you didn't spend all your money.
    Mr. Hall. I didn't know that.
    Mr. Lungren. I know that. I was going to wait until you got 
out of the room. But this is kind of interesting, because there 
is always the criticism of government that, when it comes to 
the end of the year, they spend as much as they can to make 
sure they protect the budget for this year. But you have come 
forward, as a number of committees have come forward, and 
talked about how they didn't need to spend everything they had 
this last year, but yet they were able to do the job. So we 
appreciate that. I thank both of you.
    The Chairman. Thank you.
    Mr. Markey. Mr. Chairman, do you want me to come up here?
    The Chairman. We are trying to find out if Mr. 
Sensenbrenner is showing up. We were told he is on his way, so 
we will wait.
    Mr. Lungren. Maybe Mr. Markey could tell us why the Celtics 
are superior to the 76ers?
    Mr. Markey. Because the 76ers don't have Julius Erving, 
Wilt Chamberlain----
    The Chairman. Could somebody shut their mics off?
    Mr. Lungren. Or we could compare the Philadelphia Eagles 
to--no, I don't want to get in trouble there.
    Mr. Markey. They actually had a superior team this year.
    I could begin, if you want, and complete my testimony, 
because Mr. Sensenbrenner and I are in agreement on the 
recommendations we are going to make.
    The Chairman. Certainly. Go ahead. You can begin.

STATEMENT OF THE HON. ED MARKEY, CHAIRMAN, SELECT COMMITTEE ON 
             ENERGY INDEPENDENCE AND GLOBAL WARMING

    Mr. Markey. Thank you, Mr. Chairman, very much, and thank 
you, Ranking Member Lungren.
    Last year, you asked me to appear in front of your 
committee to report on the finances of the Select Committee on 
Energy Independence and Global Warming. I am happy to return to 
you today to report on our progress.
    The select committee had a 2009 committee authorization of 
$2,096,900. As of January 22nd, 2010, the committee had spent 
approximately $1,967,000. The committee has approximately 
$129,000 remaining at this time. Of this, a significant 
percentage has been spent in preparation for 2010 and is 
working through the finance system.
    The select committee has always operated on a strict two-
thirds Majority, one-third Minority split on funds as well as 
personnel slots. Fourteen slots are allocated to the Majority, 
seven to the Minority. I think Mr. Sensenbrenner will agree 
with me that we have worked amicably with the Minority on 
matters of committee administration.
    The select committee's mission is to investigate, study, 
make findings and develop recommendations on policies, 
strategies, technologies and other innovations intended to 
reduce the dependence of the United States on foreign sources 
of energy, and achieve substantial permanent reductions in 
emissions and other activities that contribute to climate 
change and global warming.
    To that end, the select committee held 14 hearings in 2009. 
While the select committee does not have legislative authority, 
we used these hearings to educate the Members and the House on 
important issues on energy independence and global warming.
    We held hearings on topics ranging from international 
climate negotiations to smart grid technology; climate science 
to intellectual property; green jobs to agriculture and 
forestry. In addition, the staff took this information and 
developed concrete policy recommendations across a range of 
issue areas. These hearings and policy recommendations proved 
very important to the House as it worked its way through the 
American Clean Energy and Security Act.
    Select committee members also serve on the Energy and 
Commerce Committee, Ways and Means, the Committee on Natural 
Resources, the Agriculture Committee, and the Committee on 
Financial Services. As these committees considered the portions 
of the ACES legislation, they were able to utilize the findings 
of our hearings.
    In addition to this work, the select committee used its 
power to conduct a 2-month investigation on more than a dozen 
fraudulent letters sent to several Members of Congress as part 
of a campaign run by the firm Bonner & Associates and 
contracted by the American Coalition For Clean Coal 
Electricity. This campaign was designed to influence Members of 
Congress, but ultimately the investigation concluded with a 
hearing featuring some of the central figures in the 
controversy, including victims of the fraud. The fraudulent 
letters were staged to appear as if they were sent by groups 
representing senior citizens, minorities and veterans.
    Lastly, the select committee shared its views with the 
administration on a range of topics, including urging Secretary 
Chu to conduct an audit of Energy Star, urging the Obama 
administration to protect the Arctic from drilling threats, and 
calling for clean energy reform.
    The select committee is working hard to continue our work 
on the climate and energy debates. We look forward to bringing 
witnesses to Washington from all over the country that can 
share with our members the threats posed by global warming and 
the potential for our green energy future.
    I thank you, Mr. Chairman, Mr. Ranking Member, and I yield 
back the balance of my time.
    The Chairman. Thank you.
    [The statement of Mr. Markey follows:]

    [GRAPHIC] [TIFF OMITTED] T5482A.063
    
    [GRAPHIC] [TIFF OMITTED] T5482A.064
    
    [GRAPHIC] [TIFF OMITTED] T5482A.065
    
    [GRAPHIC] [TIFF OMITTED] T5482A.066
    
    The Chairman. Mr. Sensenbrenner.

 STATEMENT OF THE HON. JAMES F. SENSENBRENNER, RANKING MEMBER, 
   SELECT COMMITTEE ON ENERGY INDEPENDENCE AND GLOBAL WARMING

    Mr. Sensenbrenner. Mr. Chairman, I will be very brief. I 
disagree with practically everything that the Chairman and the 
Majority have done, but I do support the budget request that 
has been submitted by the select committee. It does provide the 
Minority adequate funds to vigorously dispute and tear apart 
everything that the Chairman wants to do, and that is all I can 
ask.
    I yield back the balance of my time.
    The Chairman. I know the feeling, sir. Thank you.
    [The statement of Mr. Sensenbrenner follows:]
    The Chairman. Mr. Lungren, any questions?
    Mr. Lungren. Well, I am glad the two of you work so well 
together.
    As I recall at the hearing we had last year, the 
anticipation was that the select committee would be phased out 
at the end of this Congress. Is that what we are still talking 
about?
    Mr. Markey. There has been no change in that from the 
Speaker.
    Mr. Lungren. I happen to think it is important for us to 
carry out our work that we have to. Various committees do fact-
finding and so forth, and I know there was some controversy 
about Members attending the Copenhagen Summit. But I take it 
the two of you attended as members of this select committee; is 
that correct?
    Mr. Markey. That is correct.
    Mr. Sensenbrenner. Yes, we did.
    Mr. Lungren. And would the costs then have been incurred by 
the committee budget?
    Mr. Markey. The costs were incurred by the State 
Department.
    Mr. Sensenbrenner. This was the Speaker's delegation. It 
was not a committee codel.
    Mr. Lungren. So there is no need for additional funds to 
cover that in the budget request that you made; is that 
correct?
    Mr. Markey. No, not at all.
    Mr. Lungren. I think that is all I have. They get along so 
well, Mr. Chairman, there is nothing more we have to ask.
    The Chairman. Thank you. I thank both of you for coming. We 
appreciate it.
    Thank you for coming here today. As you know, we asked when 
we had our funding hearings a year ago that people come back to 
find out just how your committee is faring with the cuts we had 
to make, and we are looking forward to whatever report you 
would like to report to us.
    Mr. Chairman, you are on.

 STATEMENT OF THE HON. BENNIE G. THOMPSON, CHAIRMAN, COMMITTEE 
                      ON HOMELAND SECURITY

    Mr. Thompson. Thank you very much, Chairman Brady and 
Ranking Member Lungren. Mr. Lungren and I have been together 
already today, and I look forward to his input here.
    I would like to thank you and all of the members of the 
committee to allow me and Ranking Member King--and in his 
absence, Mr. Olson will present the Minority position on 
Homeland Security.
    Thank you for the 2009 funding authorization approved by 
this committee. The Committee on Homeland Security has been 
able to both be vigilant and thorough in our approach. This 
committee has conducted 51 hearings, considered 14 measures, 
and conducted 42 offsite Member-staff visits, field hearings, 
conferences, meetings and briefings all regarding measures to 
secure the homeland.
    In 2009, the committee spent 92 percent of its allocated 
funds. Of that, 87 percent was on staff salaries alone. The 
committee had remaining approximately $680,000. We are here to 
request that the funds authorized for 2010 come to the amount 
of $9,058,134. These funds are necessary to pay salaries for 
the total of 75 staff, both Majority and Minority combined, and 
operating expenses for the full committee and its six 
subcommittees.
    The 2010 allocation is approximately 3.9 percent over the 
2009 allocation. Most of the increase will be used for merit 
pay and COLAs for staff, which I believe Representative King 
would agree they are the best and brightest on the Hill. In 
addition to providing for our staff, the allocation assures 
that they have access to reliable and cutting-edge equipment 
and technology, as well as updated security software.
    Last year, the committee met with airport and transit 
authorities, first responders and border security officials. We 
conducted many site visits and attended relevant conferences. 
We anticipate that slightly more travel will occur this year, 
especially after the attempted bombing on Northwest Flight 253 
from Amsterdam to Detroit, Michigan on this past Christmas Day.
    It is this committee's intent, and we have already done so, 
to travel throughout the country ensuring the security of all 
our airports, train stations, borders and ports. As we all 
know, the nature of homeland security, after all, is a local 
matter affecting all of our communities in different ways. A 
one-size-fits-all approach to security simply will not do, and 
constant interaction and cooperation with each State and local 
community are essential to forming the best policy.
    I know these are challenging times, and I appreciate the 
support this committee has shown us in the past, and I look 
forward to your support in the future.
    Thank you for your time, Mr. Chairman.
    The Chairman. Thank you.
    [The statement of Mr. Thompson follows:]

    [GRAPHIC] [TIFF OMITTED] T5482A.067
    
    [GRAPHIC] [TIFF OMITTED] T5482A.068
    
    [GRAPHIC] [TIFF OMITTED] T5482A.069
    
    [GRAPHIC] [TIFF OMITTED] T5482A.070
    
    [GRAPHIC] [TIFF OMITTED] T5482A.071
    
    [GRAPHIC] [TIFF OMITTED] T5482A.072
    
    [GRAPHIC] [TIFF OMITTED] T5482A.073
    
    [GRAPHIC] [TIFF OMITTED] T5482A.074
    
    The Chairman. Mr. King.

STATEMENT OF THE HON. PETER KING, RANKING MEMBER, COMMITTEE ON 
                       HOMELAND SECURITY

    Mr. King. Thank you, Chairman Brady, Ranking Member Lungren 
and members of the committee, for the opportunity to testify on 
behalf of Ranking Member King in support of funding for the 
Committee on Homeland Security in 2010.
    As the Chairman stated, the committee on Homeland Security 
finished the first session of the 111th Congress with allotted 
funds remaining. We join him today in supporting the funding 
level of $9,058,134 for the second session, as previously 
approved by the Committee on House Administration.
    The Committee on Homeland Security serves an important role 
in providing oversight for the Department of Homeland Security. 
In 2009 we saw an increase in terrorist plots against the 
homeland. In May, four men were arrested for attempting to bomb 
a synagogue in New York City and shoot down planes at a 
military base in Newberg, New York. In September, Najibullah 
Zazi had direct ties to senior al Queda leadership in Pakistan 
and Afghanistan. He was charged with conspiracy to use weapons 
of mass destruction. And Husein Smadi was arrested for 
attempting to bomb a skyscraper in Dallas, Texas.
    In November, U.S. Army Major Nidal Hasan murdered 13 
military personnel during a terrorist attack at Fort Hood, 
Texas. It was later revealed that Major Hasan had e-mail 
exchanges with Yemen-based radical cleric Anwar al Awlaki.
    Most recently, on Christmas Day, Umar Farouk Abdulmutallab 
attempted to detonate a bomb on Northwest Airlines Flight 253 
flying into Detroit, which would have killed nearly 300 people. 
This morning, the Committee on Homeland Security held a hearing 
on this nearly successful terrorist attack, the most serious in 
our country since September 11, 2001, and steps that are being 
taken to ensure that a similar attack does not happen again.
    In the upcoming year, we are hopeful that our committee 
will also address important issues within its jurisdiction, 
including the terrorist shooting at Fort Hood, the 
administration's decision to close the detention facility at 
Guantanamo Bay, the security implications of civilian trials of 
9/11 mastermind Khalid Sheikh Mohammed and four other 
terrorists in New York City, and the urgent need to strengthen 
our border security.
    It is also imperative that the Committee on Homeland 
Security pass an authorization bill for the Department of 
Homeland Security to ensure the Department has the policy, 
guidance and resources it needs to fulfill its mission. The 
House should pass the authorization bill prior to House action 
on the Homeland Security appropriations bill for fiscal year 
2011.
    It is critical that the Speaker of the House take steps in 
2010 to consolidate congressional oversight of the Department 
of Homeland Security. As you know, this was one of the key 
recommendations of the 9/11 Commission, yet it remains one of 
the only recommendations by the commission that has not been 
fully implemented.
    Over 80 committees and subcommittees currently exercise 
oversight for the Department of Homeland Security. This 
untenable situation results in contradictory guidance provided 
to the Department on key policies and programs, imposition of 
burdensome workloads that divert limited resources, unnecessary 
detractions for senior Department officials, and jurisdictional 
battles among House committees that impede passage of key 
Homeland Security legislation.
    Given the important role that the Committee on Homeland 
Security plays in overseeing the Department tasked with 
protecting our country from a terrorist attack and being better 
prepared for natural disasters, we request that the Committee 
on House Administration continue to support the previously 
authorized funding level for the second session of the 111th 
Congress.
    I would like to highlight two key areas where we believe 
additional budgetary focus should be given in the coming year. 
The Minority members and staff need better and more reliable 
access to the SCIF, our secure office space. In 2008, Chairman 
Thompson committed to working with us to provide this access. 
But there are outstanding issues.
    For example, on the days immediately following the 
Christmas bombing attempt on Flight 253, our staff was unable 
to access the committee's SCIF space and had to rely on the 
House Sergeant of Arms' SCIF in order to conduct oversight and 
communicate with the Intelligence Community. I hope that the 
2010 budget will allow for greater Minority access.
    The second issue I hope will be addressed this year with 
the approved budget is the scheduling of Minority-requested 
field hearings. We have had difficulty scheduling these field 
hearings, despite multiple field hearings held in districts of 
Democrat committee members, and we are concerned with the 
denial of requests and continued delays in scheduling others. 
We hope this imbalance will be addressed in the second session 
in the same bipartisan tradition the committee has operated 
under in the past.
    In closing, we support the additional funding for the 
committee in 2010 and look forward to working with you and 
Chairman Thompson to accomplish these goals.
    Thank you for the opportunity to testify today. I welcome 
any questions you may have.
    The Chairman. Thank you.
    [The statement of Mr. King follows:]

    [GRAPHIC] [TIFF OMITTED] T5482A.075
    
    [GRAPHIC] [TIFF OMITTED] T5482A.076
    
    The Chairman. Mr. Lungren.
    Mr. Lungren. Thank you very much, Mr. Chairman.
    Chairman Thompson, since we had the committee before our 
committee a year ago, we now have the CVC and we have a SCIF 
over there and so forth. Are we still having a problem with 
dealing with them over there about space for us?
    Mr. Thompson. Well, we did. We have kind of resolved that 
part. As you know, I had from the Majority side of the budget 
that space that we have in the SCIF, and actually my budget 
ended up providing the equipment and other items for the SCIF. 
To my knowledge, all of the other issues associated with the 
SCIF have been resolved.
    Mr. Lungren. Okay. I just understood there was some problem 
about us having sufficient workspace for both the Majority and 
Minority over there.
    Mr. Thompson. I will ask staff. But at this point I know we 
have Majority staff there.
    Mr. Olson. If I could interject, I think our big problem is 
having 24-7 access to a SCIF. As we know, the most recent 
terrorist attack in our country happened on Christmas Day, and 
not a lot of people were here. It is important that we have 
access to a facility like that.
    Mr. Lungren. If there is anything this committee can do, if 
there is a problem in terms of--I heard there was a computer 
room that could be used for a Minority secure room and so 
forth. If we need some authority from this committee on help 
from this committee, we will be happy to help with it, if that 
is a problem.
    Mr. Thompson. I appreciate it, Mr. Lungren. We have now 
employed a full-time security person for the SCIF whose primary 
responsibility is the custody of the records as well as 
scheduling for the SCIF. The only thing I ask is that if the 
request is made, that it should come through the Chairman, like 
it has always, and we will be more than happy to accommodate 
the request.
    Mr. Lungren. I just want to make sure there is no budget 
problem with that.
    Mr. Thompson. No budget problem.
    Mr. Lungren. One thing near and dear to my heart about 
field hearings, I don't want to make it personal, but I asked 
for a field hearing that we have had kind of a delay in getting 
any response on. I just wondered if we are going to be able to 
work some of these things out in terms of some field hearings 
that the Minority have requested.
    Mr. Thompson. I think you will be very satisfied in the 
future.
    Mr. Lungren. I thank the Chairman very much, and I thank 
both of you for appearing, and I am privileged to serve on that 
committee. I think we do good work. I think by and large, there 
is a bipartisan approach. I think there are some huge issues 
out there.
    I would echo Pete's comments that I would wish that the 
rest of the Congress would understand the consolidation that 
might be appropriate of authority. I know, Mr. Chairman, that 
might put you in a difficult situation, to say anything on 
that. But I will just remark for the record that the 9/11 
Commission did indicate as recently as this week that that is 
one shortcoming of the Congress, and they have not directed any 
criticism at the Homeland Security Committee, but rather 
suggested there ought to be more consolidation of authority. I 
think they speak the truth.
    Mr. Thompson. Mr. Lungren, I agree 100 percent with you.
    Mr. Lungren. I am not trying to get you in trouble on that.
    Mr. Thompson. I got myself in trouble, because I raised it 
and tried to get that issue attended to, and I will continue to 
do likewise.
    Mr. Lungren. Thank you very much.
    The Chairman. Thank you, Mr. Lungren.
    Also I want to thank the committee because, Mr. Chairman, 
we had a problem at the Philadelphia airport. You were prompt, 
extremely quick in helping us resolve the problem. We had a 
problem with security dogs, and you got right to the problem 
and told us what we needed to be doing to try to make sure our 
airport was secure and safe. It happened within 24 hours, and I 
do appreciate that. Thank you.
    Mr. Thompson. Thank you very much.
    The Chairman. Thank you for being here.
    Good afternoon. Thank you for appearing in front of us 
today. As you know, we did our budgetary allowances on our 
committees last year. We asked if they would come back and let 
us know how you are getting along, how you are getting along 
with our cuts and making sure everything is getting along well. 
We appreciate both of you, Mr. Chairman and Mr. Ranking Member, 
for being here today.
    Mr. Miller.

  STATEMENT OF THE HON. GEORGE MILLER, CHAIRMAN, COMMITTEE ON 
                      EDUCATION AND LABOR

    Mr. Miller. Thank you very much, Mr. Chairman, Mr. Lungren.
    The Chairman. Push that button, please. Push that button.
    Mr. Miller. Thank you for the opportunity to appear before 
the committee at this midterm review here. I would like to 
thank Mr. Kline, the senior Republican, for his support of our 
committee budget, both when we presented it first and again 
this time.
    The committee has been especially active during the first 
session of Congress. The committee's Lilly Ledbetter Fair Pay 
Act was the first bill signed by President Obama.
    The committee also played a major role in crafting the 
American Recovery and Reinvestment Act. In the spring, 
President Obama signed the Edward M. Kennedy Serve America Act, 
the first reauthorization of the National Corporation for 
Community Service, and the committee achieved House passage of 
the Student Aid and Fiscal Responsibility Act, providing $87 
billion in savings and increased student aid and deficit 
reduction.
    Lastly, the committee has been working, along with our 
colleagues on the Ways and Means Committee and the Energy and 
Commerce Committee, to accomplish President Obama's health care 
reform agenda.
    To finance these efforts, the committee has received 
$8,617,000 for its operational expenses for the first session 
of the 111th Congress. The amount allocated between the 
Majority and Minority has been, as designated by the House 
Administration Committee, the customary two-thirds and one-
third split between the Majority and the Minority. These 
divisions have allowed the Minority to adequately staff and 
prepare the Republican members of the committee for the actions 
of the committee, and they are, I believe, in compliance with 
the directive of this committee.
    For the first session of this Congress, we presently 
estimate the committee has spent about $8,073,000, and would 
likely produce a balance of $544,000. The majority of that 
balance is largely due to the fact that several senior staffers 
of the committee have accepted employment with the Obama 
administration.
    Two of our staffers were confirmed by the Senate for 
assistant secretary positions. One was appointed the acting 
assistant secretary, and yet another accepted a chief of staff 
position for a senior official at the Department of Education. 
These senior staffs had salaries on the higher spectrum of the 
salary scale compared to other staff. This left us with a 
higher balance for 2009 than initially projected.
    As the committee continues its busy workload, we are 
scheduled to receive $8,953,000 for the second session. I 
believe that amount is appropriate, given the anticipated 
legislative activity for the committee in 2010.
    We are in the process of hiring additional staff and will 
utilize nearly all of our 52 Majority staff slots to complete 
what will continue to be a packed legislative calendar. The 
committee will be working on the Student Aid and Fiscal 
Responsibility Act, with the Ways and Means Committee jointly 
on pensions, and we have met on a bipartisan basis with the 
Secretary of Education to discuss the reauthorization of the 
Elementary and Secondary Education Act. So this year will also 
be busy in this session of the Congress.
    Thank you. I will be happy to answer any questions.
    The Chairman. Thank you.
    [The statement of Mr. Miller follows:]

    [GRAPHIC] [TIFF OMITTED] T5482A.077
    
    [GRAPHIC] [TIFF OMITTED] T5482A.078
    
    [GRAPHIC] [TIFF OMITTED] T5482A.079
    
    [GRAPHIC] [TIFF OMITTED] T5482A.080
    
    [GRAPHIC] [TIFF OMITTED] T5482A.081
    
    [GRAPHIC] [TIFF OMITTED] T5482A.082
    
    The Chairman. Mr. Kline.

STATEMENT OF THE HON. JOHN KLINE, RANKING MEMBER, COMMITTEE ON 
                      EDUCATION AND LABOR

    Mr. Kline. Chairman Brady, Ranking Member Lungren, thanks 
for the opportunity to testify today as part of your review of 
the Education and Labor Committee funding for the first session 
of the 111th Congress. As you know, in June of last year I 
became the Ranking Member on the committee, and I am grateful 
to serve in that capacity and to work with my colleagues on 
that committee, including our Chairman, Mr. Miller.
    Chairman Miller has continued to provide the Minority staff 
with autonomy over our allotted share of the committee funding, 
and I am grateful for that. As the standard procedure, we are 
allotted one-third of the committee's annual funding. In 2009, 
the Minority received $2,734,363. According to our records, we 
spent $2,519,503.73, with additional 2009 obligations totaling 
$117,666. These expenditures will leave us with a year-end 
balance of $97,193.18. Our balance reflects the work of the 
committee throughout the first session of this Congress.
    One concern I would like to raise before the committee 
today is in regards to the Minority's ability to properly track 
our funding outlays and obligations in real time. Currently the 
Majority has sole access to the financial report software that 
provides up-to-the-minute information about the committee's 
funding balance.
    To expand our ability to track the most current data, we 
would like to work with Chairman Miller and his staff to gain 
access to this type of real-time financial data software. We 
would be requesting access solely to the Minority's account 
information in order to monitor our expenses and obligations in 
real time. This data would be an important asset to the 
Minority staff.
    Thank you for allowing me the opportunity to testify today. 
I appreciate your time. I would be happy to answer any 
questions you might have.
    The Chairman. Thank you.
    [The statement of Mr. Kline follows:]

    [GRAPHIC] [TIFF OMITTED] T5482A.083
    
    The Chairman. Mr. Lungren.
    Mr. Lungren. I guess the only thing I would ask, is there 
any problem with having the Minority have this ability to track 
their funding? Is that a problem at all?
    Mr. Miller. I would say at this point that I have only 
heard about this for the first time. I think yesterday the 
staff mentioned there might be a discussion of this. I don't 
know. I haven't had any conversations with Mr. Kline. I don't 
know if the staffs have or not.
    As I understand it, under the current procedures I think on 
all committees, they submit their expenses and we pay those, 
and that is how it is done. I don't know what information----
    Mr. Lungren. Then the committee reports to us once a month 
and we actually make that information available on our Web 
site.
    Mr. Miller. I don't know what information would be 
available that is not available today. But we haven't had that 
discussion, so that is ignorance on my part as to what that 
might be.
    Mr. Kline. We would like to just be able to track it in 
real time with payables and receivables and be able to monitor 
the progress. Currently, if we wait until reports come out at 
the end of the month which we get to look at, that is very 
useful. Those are reports that are shared and you get to see. 
The Majority, of course, gets to track this in real time, and 
they track Majority and Minority expenditures, as I understand 
it, in real time. We are not looking for access to the 
Majority, but we would like to be able to have software to help 
the staff manage our spending.
    Mr. Lungren. So your purpose is to only make sure that you 
are watching your money during the month, rather than just 
finding out at the end of the month?
    Mr. Kline. Exactly. And having software to help us do that.
    Mr. Lungren. Okay, I understand.
    Mr. Miller. I will have to sort it out.
    Mr. Lungren. I was trying to figure out what it was, and it 
sounds like Mr. Kline is just saying he would like to have an 
ability to see what we spend within the month rather than just 
wait to the end of the month, if we could help with tracking. 
It seems to me that is something the two of you can work out.
    Mr. Miller. We will figure it out.
    Mr. Lungren. I appreciate the fact that Mr. Kline was very 
nice not to make any comments about his position on the 
legislation you cited in your statement.
    Mr. Miller. His strong, strong support.
    Mr. Kline. George.
    Mr. Miller. For the alternatives.
    Mr. Lungren. Thank you for your presentations. I think this 
is part of our transparency, just to make sure the public sees 
we are holding ourselves accountable and that we are watching 
where the dollars are spent. I appreciate it very much. Thank 
you.
    The Chairman. Thank you. Thank you for appearing.
    Thank you for appearing here today. As you know, we asked 
everybody to come back after 1 year and let us know how you 
were doing with the cuts that were made. You didn't need any. 
You didn't ask for any extras. But just to find out how the 
committee is doing and how you figure to do for the next year.
    Mr. Ryan will not be here, he just couldn't get here today, 
so you have the whole budget in your hands, sir.

 STATEMENT OF THE HON. JOHN SPRATT, CHAIRMAN, COMMITTEE ON THE 
                             BUDGET

    Mr. Spratt. Okay. Mr. Chairman, Mr. Lungren, thank you both 
for the chance to testify before this committee regarding the 
Budget Committee's funding level for the next fiscal year.
    When Congressman Ryan and I appeared before this committee 
1 year ago, we asked for a funding level for 2009 and for 2010 
that was frozen at the same level that we had received for 
2008. The committee funding resolution provided us with the 
requested budgetary freeze.
    On both sides of the aisle, we at the Budget Committee have 
prided ourselves on spending carefully the funds that we have 
been provided with. As a result, I am pleased that the Budget 
Committee can report that we have not spent all of the funds 
that the funding resolution allowed for the first session of 
the 111th Congress.
    A portion of these unused resources reflect some funds that 
were built into our base budget as part of the funding process 
for the 110th Congress. At the beginning of the 110th Congress, 
we also requested a freeze for 2007 and 2008 to keep funding at 
the same level that the Budget Committee had received not just 
for 2006, but for 2004 and 2005 as well. As things turned out, 
the funding resolution for the 110th Congress did not freeze 
the Budget Committee's level, but provided us with an increase 
of about 4 percent. Those funds have been carried forward into 
our budget for the 111th Congress.
    The largest area where our spending needs have been lower 
than anticipated for the first session of the 111th Congress is 
in the area of personnel, especially on the Majority side. We 
have experienced some staff turnover, either as the direct or 
indirect result of jobs opening up in the administration.
    In some cases we have been stretching ourselves thin with 
staff resources doing more or less and in some cases doing more 
with less, and in some cases we may undertake additional hiring 
in the second session of the 111th Congress.
    We hoped, for example, to hire a policy director in the 
first session of the 111th Congress, but we have not yet found 
the person we want to fill that particular position.
    On equipment costs, for example, we have also tried to be 
frugal. Instead of purchasing a new $25,000 copier to replace 
the old one, we chose to repair the old one at a much lower 
cost. I didn't know that until I read that myself. My 
experience with the old copy machines is that they will drive 
you up the wall. But in any event, we have withheld that money 
and tried to repair the old one at a much lower cost.
    The problem is because some of our computer equipment, 
notably monitors, is old and out of warranty, it will be 
cheaper this year for us to replace rather than repair the ones 
that break.
    Regardless of which party has been in the majority, the 
Budget Committee has always fostered a collegial bipartisan 
relationship on the issue of the committee's budget. For all--
not the House budget but the committee's budget. For all 
equipment and other nonpersonal expenses we handle funding for 
the majority and minority out of a common fund, and both the 
majority and minority receive upgrades on an equal basis in 
terms of timing and quality. For personnel costs the majority 
and minority have long maintained an arrangement wherein the 
minority fully controls one-third of the total budget for 
personnel and one-third of the available staff slots allocated 
to us. I believe that Mr. Ryan's testimony will affirm that our 
colleagues in the minority found this to be a workable, 
equitable, and fair arrangement.
    Mr. Chairman, Mr. Lungren, that is the scope of my 
testimony. I will be glad to answer any questions you may have.
    [The statement of Mr. Spratt follows:]

    [GRAPHIC] [TIFF OMITTED] T5482A.084
    
    [GRAPHIC] [TIFF OMITTED] T5482A.085
    
    [GRAPHIC] [TIFF OMITTED] T5482A.086
    
    [GRAPHIC] [TIFF OMITTED] T5482A.087
    
    [GRAPHIC] [TIFF OMITTED] T5482A.088
    
    [GRAPHIC] [TIFF OMITTED] T5482A.089
    
    [GRAPHIC] [TIFF OMITTED] T5482A.090
    
    [GRAPHIC] [TIFF OMITTED] T5482A.091
    
    Mr. Spratt. I have a copy of Mr. Ryan's testimony which I 
will submit for the record and I would be happy if Mr. Smythe 
would read it into the record at this point in time. It is not 
very long.
    Mr. Smythe, do you want----
    The Chairman. We could have the statement put in the 
record.
    Mr. Lungren. We will just accept it.
    The Chairman. We will accept the statement for the record.
    Mr. Spratt. Okay.
    [The statement of Mr. Ryan follows:]

    [GRAPHIC] [TIFF OMITTED] T5482A.092
    
    The Chairman. Mr. Lungren.
    Mr. Lungren. Thank you very much, Mr. Chairman. And I want 
to tell my friend from South Carolina that I enjoyed my service 
on the Budget Committee and it was not my decision to get off. 
I enjoyed working with you, Mr. Chairman, and the staff is an 
excellent staff both majority and minority.
    I believe your committee has the distinction of being the 
one that requested the smallest increase; that is, I think you 
asked for no increase this last time, which, as I say, the 
smallest increase of any request of any committee in the House. 
And you have actually not expended all of those funds and, 
having been a member of that committee and still a recipient of 
the material that comes out of that committee, I know that your 
committee is doing a great job in terms of presenting those 
issues. We can disagree on where the majority comes out versus 
where the minority comes out, but the quality of the work 
product is exceptionally good, and that is something that we 
ought to remind folks back home. Your committee is doing 
excellent work.
    You asked for no increase in budget and you even exceeded 
yourself by coming in below that budget but yet have performed 
your job and I thank you for that, and I thank Mr. Ryan for 
that in absentia. And I have no questions.
    The Chairman. Thank you and again, Mr. Chairman, thank you 
for your time.
    Mr. Spratt. Thank you very much indeed.
    The Chairman. For now this hearing will stand adjourned 
until 4:00 p.m.
    [Whereupon, at 3:25 p.m., the committee was recessed, to 
reconvene at 4:00 p.m. This same day.]
    Mr. Gonzalez [presiding]. Good afternoon. We are going to 
reconvene, and at this time we are going to entertain testimony 
by the chairman and ranking member of the Committee on Armed 
Services. Each member will obviously have 5 minutes in which to 
make their statement and then we will have questions that any 
of the members of the committee wish to pose.
    At this time we would recognize the chairman, Mr. Skelton.

STATEMENT OF THE HON. IKE SKELTON, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    Mr. Skelton. Thank you, Mr. Chairman. I appreciate your 
allowing us to testify and it is good to be here with my friend 
and my new partner, Buck McKeon, ranking member.
    You have the committee's budget data and supporting 
materials before you; so let me make a few brief remarks.
    Before I discuss our summary, let me say that we certainly 
appreciate the renovation that your committee gave us in our 
committee room. It looks great and we especially appreciate the 
renovation to allow wheelchair access as well as the updated 
audio system. We just had our very first closed briefing there 
and used it and it is just excellent. So thank you again for 
that.
    Our committee has been very, very active last year and 
beginning this year. We intend to use our renovated hearing 
room quite often. Last year we conducted 122 hearings and 55 
briefings. At that rate of 177 hearings conducted, I think we 
will continue to do that. We had seven pieces of legislation, 
including the major bill, five hundred and some thirty-eight 
billion dollars, for the Defense Authorization Act, which is 
over 50 percent of the discretionary portion of the entire 
Federal budget, and that includes weapons systems. And we also 
had major legislation that passed and was sent to the 
President, the Weapons System Acquisition Reform Act, steps in 
reforming the process of buying weapons systems, a major step.
    Your committee provided our committee with $15.8 million 
for the 111th Congress. Of that, $7.8 million was allocated for 
2009 and the committee expended and obligated 98.8 percent of 
those funds. The remaining 1.2 percent served as a buffer so we 
would not exceed any fund allocation.
    The committee staff that we have is just outstanding. They 
are experts in their technically skilled areas and they are all 
very professional. Our staff now is allocated 71 seats serving 
62 members, and of course we think that is far below and we 
know it is far below the average of other House committees, not 
in keeping with past history of our committee. During the 103rd 
Congress, Chairman Les Aspin had a staff of 82 to assist only 
55 members. There remains unmet staffing needs on both sides of 
the aisle, and we would certainly appreciate your consideration 
to assist us in that regard.
    The last thing I would like to mention is to raise the need 
to upgrade our committee's Internet presence. Buck and I are in 
agreement that we need to better utilize technology to ensure 
the public is fully aware of what our committee is doing as 
well as to support the national defense. To that end we need 
additional resources to improve both the majority and the 
minority Web sites to enhance document distribution, video and 
audio webcasting and increase the visibility of our committee.
    These are budgetary challenges and we are certain you can 
be of support for us. Thank you.
    [The statement of Mr. Skelton follows:]

    [GRAPHIC] [TIFF OMITTED] T5482A.093
    
    [GRAPHIC] [TIFF OMITTED] T5482A.094
    
    [GRAPHIC] [TIFF OMITTED] T5482A.095
    
    [GRAPHIC] [TIFF OMITTED] T5482A.096
    
    [GRAPHIC] [TIFF OMITTED] T5482A.097
    
    [GRAPHIC] [TIFF OMITTED] T5482A.098
    
    [GRAPHIC] [TIFF OMITTED] T5482A.099
    
    [GRAPHIC] [TIFF OMITTED] T5482A.100
    
    Mr. Gonzalez. Thank you very much, Mr. Chairman.
    We will recognize now the ranking member, Mr. McKeon.

   STATEMENT OF THE HON. HOWARD P. ``BUCK'' McKEON, RANKING 
              MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. McKeon. Thank you, Chairman Gonzalez, Ranking Member 
Lungren, and distinguished members of the committee. As a 
former businessman, I applaud your new initiative to review how 
each committee spent its budget in the first session of the 
111th Congress. It is hard to prepare a credible business plan 
for the coming year without reviewing the previous year and 
making necessary adjustments. I believe you will agree that 
under the leadership of my new good friend and partner, 
Chairman Ike Skelton, we have efficiently spent our limited 
resources.
    While we have accomplished a great deal, there are a 
number--multiple programs, including and especially the 
Department of Defense initiated mid-year programmatic changes, 
requiring closer scrutiny. Due to our limited staff, we could 
provide only cursory oversight to these programmatic changes 
and necessarily deferred digging into higher--high profile--
several high profile programs. While our Nation is at war, our 
priority naturally focused on the war effort, but we do have a 
duty to examine everything the Department of Defense does to 
meet emergency threats to our national security.
    As the chairman noted, the Department of Defense budget 
accounts for more than 50 percent of all Federal discretionary 
spending. Additionally, we are engaged in two wars and are 
seemingly discovering new threats and undertaking new 
operations weekly. In barely a month we have had a Christmas 
Day terrorist bomber, a resurgent al Qaeda in Yemen, and a 
major relief operation in Haiti.
    The programs our committee oversees are subject to change 
every year. Indeed, programs often change during the year. We 
do not oversee mandatory programs on automatic pilot nor long 
authorized programs subject to the relatively lengthy swings of 
the economic cycle but dynamic literally life and death 
national security efforts that are in a constant flux. These 
huge complex programs require continuous examination by expert 
staff.
    Last April, the Secretary of Defense announced a multitude 
of major changes to Pentagon spending priorities, yet we are 
barely able to address those issues. Next week we will receive 
the Department's Quadrennial Defense Review, setting the course 
of defense priorities in spending for the next 4 years on the 
same day that we receive the President's budget submission for 
fiscal year 2011. It is absolutely critical these plans be 
critically examined by the Congress, yet we have staffing and 
budget ratios well below those of other House committees.
    The oversight of the huge national security budget and 
important international operations takes a large talented and 
well-coordinated staff effort. I urge the committee to provide 
the Committee on Armed Services with additional staff and 
fiscal resources commensurate with our sworn constitutional 
duty to provide for the common defense.
    Yet these are difficult times. I understand that. But 
national security cannot be shortchanged. Press reports 
indicate that the President will freeze discretionary spending 
for all programs except national defense and a few others. I 
cannot speak for other committees, but I do know that we need 
to conduct effective, meaningful oversight. If the 
administration believes that national defense should be exempt 
from budget freezes in these tough economic times, then 
Congress should do no less.
    Lastly, I have to echo the chairman's concern about the 
committee's Internet presence. In today's world no credible 
organization can operate effectively without an aggressive, 
robust, and well-managed Web site. Frankly, both Ike and I 
operate minimally functional sites that are in need of 
professional help. We don't want to be flashy, just thorough, 
informative, and transparent. Additionally, we need better 
video and webcasting capability to highlight Department of 
Defense officials and others providing testimony on these high-
profile programs and issues. We owe the American people and our 
men and women in uniform no less.
    Thank you for the opportunity to testify, and I look 
forward to your questions.
    [The statement of Mr. McKeon follows:]
    Mr. Gonzalez. Thanks very much, Mr. McKeon. The Chair will 
recognize Mr. Lungren.
    Mr. Lungren. Thank you very much, Mr. Chairman.
    When I hear your testimony talking about the serious nature 
of the jurisdictional issues that you have, I am reminded a 
number of years when I was on the Budget Committee and the then 
head of the OMB said, you know, if we don't get our mandatory 
spending under control, and he was referring to Medicare, 
Medicaid, and Social Security, he said by the year 2040 there 
will be zero left in the budget for all discretionary matters, 
including national defense. And I thought, whoa, talking about 
national defense as discretionary and talking about the fact 
that we would have zero. Now, we know we would never get to 
that, but it does show to me at times that we don't always 
appreciate what the first obligation of the Federal Government 
is. So I appreciate the work that you do on your committee.
    One of the things I would like to ask, your committee, do 
you have the one-third/two-thirds ratio or do you have 
nonpartisan staff members? How does that work?
    Mr. Skelton. We historically for the last 50 years have had 
a bipartisan, nonpartisan effort. However, the minority, when I 
was minority I had X number of appointees as we do that today. 
When I was initially ranking member at first, I had seven of my 
very own. And I don't know what Buck started off with, but 
fortunately he is up to 15 of his very own. But a professional 
staffer is just that, is on call for whoever needs help whether 
it be pay raise or airplanes or ships or whatever. And frankly 
it works, it is a pretty good tradition. I have been on the 
committee since late 1980 and it works very, very well. 
However, I do remember the fact that we had the larger number 
of staffers for only 55 members back when Les Aspin was here, 
but Les Aspin got it.
    Mr. Lungren. Mr. McKeon, about how that works out with 
staff?
    Mr. McKeon. Well, we are having some negotiations. We are 
talking about it. I feel we need more people on our side and I 
like the bipartisanship and Ike and I work together very, very 
well. I need more people. He doesn't feel at this point he is 
able to give me more. But, you know, I am a little unique. I 
have been a ranking member on two committees; so I get to see 
what Education and Labor was like and what Armed Services is 
like. When I was chairman on the Education Committee, we had 
over 50 people. It is 52 now. I think it was about the same 
when I was chairman. And as ranking member I had 26. And we had 
a lot of work to do on that committee. And I am not saying that 
they should have less people, but now I get to see what we have 
to do in Armed Services and we pass a $550 billion budget and 
then we almost start right away on the next budget, and we 
could use more help so that we could oversee better the $550 
billion and the $120 billion that goes to Iraq and Afghanistan. 
And so I am here pleading for more resources that we could use, 
and then Ike and I will have to work out how we use those 
resources. But I don't want to blow up the bipartisanship that 
we have on the committee, but we need more help.
    Mr. Lungren. I was struck by the chairman saying when he 
first came he got seven people. I remember when I was elected 
Attorney General I had almost a thousand lawyers and 5,000 
employees, and I said, How many do I get to bring in? Seven. 
Someone said it is like trying to turn the Queen Mary with a 
paddle. But we managed somehow. We managed somehow.
    Let me just ask you this. We had a real concern across the 
government in legislative--excuse me. The executive branch gets 
more publicity, but we know that we have been subject to cyber 
attacks throughout. Does your committee get the support that it 
needs from HIR and our arm of HIR which works 24/7 on just 
dealing with cybersecurity?
    Mr. Skelton. The answer is yes. And you may know that the 
Department of Defense is in the process of establishing a cyber 
command.
    Mr. Lungren. Right.
    Mr. Skelton. That of course will come under our purview. We 
are blessed with a very few, but we are blessed with experts in 
that field. As time goes by undoubtedly we will need additional 
experts in that field, too. But this is serious business. This 
is very serious business. We just had a briefing, classified 
briefing, on China that touched on this issue just a few 
moments ago.
    Mr. Lungren. I know Members are complaining now about how 
we have to have passwords for our BlackBerries and we are now 
moving towards encrypting the information here. But the fact of 
the matter is this is serious business, and Members of Congress 
have to understand that we have got to be part of it as well as 
show an example for others. We have had Members lose these 
things, even in foreign countries, and people have to 
understand the information that is in here that could go down 
and some Members think well there is no--I don't have any 
information. I am just on this committee or that committee. 
Well, we know it is called connecting the dots. You get a lot 
of information or you can break into our systems and be able to 
have a presence there is seemingly undetected. And we have just 
got to do a better job. I just wanted to make sure that you 
felt you are getting the support that you need in your 
committee in that regard as well.
    Thank you very much, Mr. Chairman.
    Mr. Gonzalez. Thank you, and the Chair will recognize Mrs. 
Davis.
    Mrs. Davis of California. Thank you, Mr. Chairman. And 
certainly Mr. Skelton and Mr. McKeon, chairman and ranking, did 
a fine job I think in presenting the Armed Services Committee. 
It is a very active committee, I know, because it is pretty 
exhaustive actually. If you attend all the hearings that are 
going on, it is a tremendous amount of workload and I know that 
the staff works very hard. So I really am here to just say that 
I think that the question of additional help is not just in 
looking to add people that would not be working hard. I mean 
clearly that is what happens on this committee. And I 
appreciate the fact that I think Mr. McKeon certainly has great 
support and probably you would like to have more. But I think 
my feeling, being there as both a minority and majority member, 
is that the staff is there for everybody and very, very 
helpful. I mean there were times I honestly did not know who 
was who because, you know, whether it was assisting us in some 
of the trips we had to make to Iraq, Afghanistan, wherever that 
might be, I honestly did not know. Everybody was extremely 
helpful, good with information, and willing to answer 
questions.
    So I just want to applaud the staff overall. Really it is a 
very, very hardworking staff. And one of the things that is 
happening now that I think is very important is the oversight 
on the committee, taking issues such as the oversight of 
contractors, which was done earlier this year and breaking off 
a committee to do that work, and that takes additional staff 
willing and able to pick up that burden and I think they did a 
great job. So I just want to thank them for being here.
    Mr. Skelton. If I may comment on that, when the Democrats 
came in the majority, we kept by and far most of the folks that 
were already there. They are pros. That is what they do in 
life. And I don't think you could find a better set of skilled 
defense people anywhere than on our staff. I think they are 
just excellent.
    Mr. Gonzalez. Thank you very much.
    Quickly, just a couple of observations and one question, 
and that is, first, the fact that you are pointing out the need 
to improve what I will refer to as your Internet presence. One 
of course is transparency and letting the public know what 
you're doing to the extent that you are allowed to get that 
information out there I think is very, very important. And also 
as an information source. Obviously the public, their faith can 
be shaken at times and the work that you do and the fact that 
it could be reviewed to the extent it can. So I commend you for 
that. I think it is underutilized, and the fact that you 
recognize its importance.
    The other thing is yes, there is going to be a freeze but 
there is not going to be a freeze when it comes to what you do. 
My concern of course is that your plate is already overflowing 
and will continue to be overflowing, and I think the ranking 
member, Mr. McKeon, said something about cursory oversight. 
These programs that you oversee, that you authorize and such 
are incredibly costly and can be very complicated. So that is a 
concern that I would express right now, and I am very sensitive 
to the remarks that were made regarding the need for additional 
personnel and such, which leads me to the only question I have, 
and that is to Mr. Skelton.
    Staff had pointed out to me, Mr. Chairman, that at your 
last testimony before the committee you pointed out how 
difficult it was to retain highly qualified staff with the 
expertise because obviously the grass can be greener out there 
in the private sector. What is the status of that since your 
last testimony?
    Mr. Skelton. Well, the Pentagon has taken several--I don't 
know the exact number, but they have taken several. And the 
young lady right behind me has been nominated to be number two 
in the Air Force when the Senate gets around to confirming her; 
so we lose our Staff Director. My recollection is, Mr. Chairman 
and Mr. Lungren, that I asked for an additional 12 slots when I 
testified before is my recollection. Does that sound right? I 
think I am right. And we could use every one of them. We lost 
13 staff mostly to the Pentagon last year.
    Mr. Gonzalez. Well, thank you very much, of course, for 
your service and the fine work that the committee does.
    Do you have anything further? Otherwise you are excused at 
this time and I will see you tonight or at votes. Thank you.
    Mr. Skelton. Thank you so much.
    Mr. Gonzalez. And I believe that we have the Committee on 
Small Business. Are they here?
    I welcome the Chair, the Honorable Nydia Velazquez, and of 
course the ranking member Sam Graves. Each of you will be given 
5 minutes to make your statement and then to entertain any 
questions members of the committee may have.
    The Chair will recognize Chairwoman Velazquez.

 STATEMENT OF THE HON. NYDIA M. VELAZQUEZ, CHAIRMAN, COMMITTEE 
                       ON SMALL BUSINESS

    Ms. Velazquez. Thank you, Chairman Gonzalez and Ranking 
Member Lungren. I really appreciate the opportunity to come 
before the Committee on House Administration to further discuss 
the first session's budget for the Committee on Small Business.
    Pursuant to House Resolution 279, the Committee on Small 
Business was funded at $7,236,082 for the 111th Congress, with 
$3,548,839 of those moneys set as the first session limitation. 
As I have stated before, Ranking Member Graves has full control 
over a third of that budget.
    With that being said, it should be noted that the Committee 
on Small Business has been very productive this past year with 
18 bills passed in 2009. Mr. Graves and myself have pooled all 
our resources to accomplish such an endeavor. In fact, Mr. 
Chairman, you will need to go back to the 98th Congress to find 
a time when the Small Business Committee has done more. At that 
time 22 bills were passed and that was over a 2-year period. 
Again we managed to pass 18 bills in the time span of just 1 
year.
    This Congress the committee obtained a much needed increase 
in terms of funding. I was very pleased to see this considering 
that previously small business was awarded the smallest 
allocation of any committee. If I recall correctly, we only 
received 3.3 percent more than we did during the 103rd 
Congress, which was 17 years ago. Once again, I would like to 
point out that our budget has not come close to keeping pace 
with inflation. At this time we are the fourth lowest funded 
committee in the 111th Congress. Yet as far as hearings and 
bills passed, you could say, Mr. Chairman, that we are one of 
the most active. We have matched the committee's hearing 
production to that of the last year that saw Small Business 
rank second in total hearings back in the 109th Congress.
    I am happy to report that the Office of the Speaker 
responded favorably to our request for additional staff slots 
and granted us with an increase of nine slots, six for the 
majority and three for the minority, effective June 4, 2009. 
This takes the Small Business Committee to 42 staff slots 
total, which are essential for Mr. Graves and myself to further 
strengthen the committee's ability to cover the broad range of 
issue areas that encompass small business, especially given the 
time of our economy where so many small businesses are 
suffering.
    As chairwoman of the Small Business Committee, one of my 
priorities has been to address the committee's technology gap. 
We have a responsibility to our members and frankly we do not 
have the necessary tools to provide the support at an 
acceptable level, which needless to say puts us at a serious 
disadvantage. I would like to point out that when first taking 
over in the 110th Congress and for the duration of the first 
session in 2007, the committee operated under duress with an 
antiquated computer system and inadequate equipment. It was 
imperative that we make significant investments to correct 
these deficiencies. Thankfully, we have been able to get over 
this hurdle. I don't think we are all the way there, but we 
have made significant progress the past few years.
    Mr. Chairman, Ranking Member Graves and I have worked in a 
bipartisan manner so that the Small Business Committee 
continues to be the productive committee it has been. We are 
aware of the current crisis facing our Nation's small 
businesses, and we welcome the challenges they represent.
    Chairman Brady and Ranking Member Lungren, Mr. Gonzalez, I 
thank you for your time and please let me if there are any 
questions you may have.
    [The statement of Ms. Velazquez follows:]

    [GRAPHIC] [TIFF OMITTED] T5482A.101
    
    [GRAPHIC] [TIFF OMITTED] T5482A.109
    
    [GRAPHIC] [TIFF OMITTED] T5482A.102
    
    [GRAPHIC] [TIFF OMITTED] T5482A.103
    
    [GRAPHIC] [TIFF OMITTED] T5482A.104
    
    [GRAPHIC] [TIFF OMITTED] T5482A.105
    
    [GRAPHIC] [TIFF OMITTED] T5482A.106
    
    [GRAPHIC] [TIFF OMITTED] T5482A.107
    
    Mr. Gonzalez. The Chair will recognize the ranking member, 
Mr. Graves.

STATEMENT OF THE HON. SAM GRAVES, RANKING MEMBER, COMMITTEE ON 
                         SMALL BUSINESS

    Mr. Graves. Thank you, Mr. Chairman and Ranking Member 
Lungren. I will be brief.
    The chairwoman pointed out very adequately how the 
committee works. It is a committee that, you know, we continue 
to have a great working relationship between the chairman's 
office and my office. Our staffs work very well together. 
Particularly in these times when small businesses are 
struggling in a big way as a result of the economy, we have 
been able to get our work done on a timely basis. Our problem 
is with the Senate more than anything else and trying to get 
them move on some of the pieces of legislation, particularly 
the reauthorization of the SBA.
    I appreciate everything the chairwoman does. It is a very 
important committee. I would argue particularly in this these 
times it is one of the most important committees we have here 
on the Hill, and I welcome any questions you may have. 
<greek-l>fb deg.
    [The statement of Mr. Graves follows:]

    [GRAPHIC] [TIFF OMITTED] T5482A.108
    
    Mr. Gonzalez. Thank you very much, Mr. Graves.
    The Chair will recognize Mr. Lungren.
    Mr. Lungren. Did I hear you correctly, Mr. Graves, that you 
have trouble with the Senate? I am astounded.
    First of all, I want to thank you both for coming in and I 
want to thank you, Madam Chairman, for the fact that your 
committee operates with one-third of the budget actually given 
to the minority and not just personnel but one-third. That is a 
great example. We appreciate that and you have been consistent 
in that.
    I notice that you have a large amount of your budget that 
you did not spend this last year. Was that because of staff or 
what was that? And I am not saying you should have spent it 
all. I am just trying to find out.
    Ms. Velazquez. Yes. Basically the money that we requested 
was to hire five more slots and we were not approved for the 
slots until late in June, in the beginning of June. And as you 
know, my committee has been overwhelmed with the work 
responding to the economic crisis impacting small businesses. 
So we need the money. It has not been spent but it definitely 
wasn't because we didn't need it. It was just the timing when 
those slots were approved by the Speaker.
    Mr. Lungren. I appreciate that. I also notice that you are 
the only person who submitted a statement using both sides of 
the paper; so you folks are doing an excellent job in saving 
money wherever you can.
    Where are you in terms of your IT? Are your systems where 
you think you need to be? Does the committee need to upgrade? I 
mean we always need to upgrade somewhat but are you 
substantially where you need to be?
    Ms. Velazquez. I believe we achieved the technology gap and 
the upgrade that we needed to have, yes.
    Mr. Lungren. Are you satisfied with that, Mr. Graves?
    Mr. Graves. We have made some significant changes and 
launched our minority Web site for the Small Business Committee 
and have been working--in fact, that has been our main focus. 
The committee needed--there were just a lot of improvements 
that needed to be done, the computer system being a big part of 
that, and that is actually where we have been focusing the 
majority of our attention from the minority side is just making 
the improvements. The chairwoman has given us the resources we 
need and the latitude to be able to make good use of what we 
are trying to do.
    Mr. Lungren. I must confess I haven't taken a look at your 
Web site, but a lot of small businesses in my community, as I 
am sure in other districts, are looking to see what the 
government is doing for them or to them or are allowing them to 
do. They are very interested in the government presence or 
absence of presence in the small business world. Would going to 
your Web sites assist them in finding their way through the 
morass of the Federal Government more than just giving them 
information about your committee? So if I were to tell them in 
addition to going to the Small Business Administration Web 
site, you ought to go to the committee Web site because there 
is information there that could assist you in finding good 
pathways to answer your questions.
    Ms. Velazquez. Definitely and--but SBA, the Small Business 
Administration, also has a good Web site that will--can guide 
them to where the resources are and information regarding where 
the businesses are established, regional offices and all the 
network of small business development centers that we have 
across the Nation, close to 68.
    Mr. Lungren. When I am having a town hall meeting or 
something and someone asks me about small business, in addition 
to the fact I happen to think tax policy is extremely important 
there, but I also try and tell them you might check the Web 
site for the SBA. It hadn't dawned on me to say check the Web 
site at Small Business Committee from the House. But that would 
be----
    Ms. Velazquez. You are welcome to do that, sure.
    Mr. Graves. I mentioned earlier how active we were. And our 
number of hits and inquiries has just exploded since we have 
launched our new--or gotten so active particularly in the IT 
area. We have gotten a lot of inquiries and sent out a lot of 
information. And we encourage, too, if they can't find what 
they need to find on our Web site, just call the office, the 
committee office, and I know that the chairwoman's site does 
the same thing and we will navigate them through. Sometimes the 
SBA can be pretty tough to find your way through unless you 
have a little bit of help, but we have seen an explosion on 
those, if you want to call them hits, inquiries, however you 
want to put it.
    Ms. Velazquez. And workshops that are conducted nationwide 
throughout regions and congressional districts.
    Mr. Lungren. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Gonzalez. Thank you, Mr. Lungren.
    Just a real quick observation, having served on the 
committee where the chairwoman--obviously it was last Congress 
but I can attest to the busy, busy agenda and it has even 
gotten busier, which leads me to the next question to both the 
chairwoman and to the ranking member. Tonight, the President 
will make his State of the Union Address and he is going to 
touch on small business. So what I perceive for your committee 
is a lot more work this second session of the 111th. How are 
you all prepared budget-wise for what I think would be the 
additional workload? Now, you may disagree and say, ``Look, we 
are already so busy that we are going to be busy as heck 
anyway.'' What do you see in the coming months budget-wise and 
workload?
    Ms. Velazquez. Well, as I mentioned to you in my statement, 
we are the committee that received the smallest amount of any--
even when you compare that we got, I believe, one of the 
highest percentages last year. But that doesn't make up for the 
fact that throughout the years the committee really got the 
smallest amount of any of the committees and it doesn't keep up 
with inflation. So we will take every help that we can get and 
every support in terms of the budget.
    Mr. Gonzalez. Thank you.
    Mr. Graves.
    Mr. Graves. So much of it depends on what the President is 
going to propose tonight. If it is an expansion of SBA programs 
and an expansion of some of the--you know, even some new 
programs, obviously we are going to have to wade our way 
through that and work our way through it. But most of it 
depends obviously on what he is going to do. If it is tax 
policy, that could be something completely different.
    Mr. Gonzalez. Thank you very much and if you have anything 
further we will entertain it at this time. Otherwise you are 
dismissed.
    Mr. Lungren, anything?
    Mr. Lungren. No, thank you.
    Mr. Gonzalez. Otherwise we stand adjourned.
    [Whereupon, at 4:35 p.m., the committee was adjourned.]

</pre></body></html>
